r

Appendix A.
Opinion of the Court of Appeal for the First
District, Division Four, December 20, 2010
(unpublished) in Appeal No. A155165,
A155187, A155899.

Court of Appeal. First Appellate District
Charles D. Johnson, Clerk/Execulivc Officer
Electronically FILED on 12/20/2019 by C. Hoo, Deputy Clerk

Filed 12/20/19

NOT TO BE PUBLISHED IN OFFICIAL REPORTS
California Rules of Court^rule 8.111.5(ajh prohibits courts and parties from citing^or relying^on opinions not certified forjDubNcation or
purposes of rule SllHS.13
^^^____________________________________________________

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION FOUR
TATYANA E. DREVALEVA,
Plaintiff and Appellant,

A155165, A155187, A155899

v.
(Alameda County
Super. Ct. No. RG17881790)

DEPARTMENT OF INDUSTRIAL
RELATIONS,
Defendant and Respondent.

These consolidated appeals arise from an order partially granting the Department
of Industrial Relations’ (DIR) special motion to strike under Code of Civil Procedure
section 425.161, a judgment of dismissal following an order sustaining a demurrer
without leave to amend, and orders after judgment denying attorney’s fees and costs.
Plaintiff contends the court erred by: (1) partially granting the DIR’s special motion to
strike (the anti-SLAPP motion) and awarding it prevailing party attorney’s fees; (2)
denying her motion to take discovery under section 425.16, subdivision (g); (3)
sustaining the DIR’s demurrer without leave to amend; (4) denying her motion requesting
the issuance of a writ of mandate compelling the DIR to release records under the Public
Records Act (Gov. Code, § 6250 et seq.) (PRA) and denying her motion for attorney’s
fees and costs thereunder; and (5) denying her motion for prevailing plaintiff attorney’s
fees and costs under section 425.16, subdivision (c). We affirm.
i

All statutory references are to the Code of Civil Procedure unless otherwise
specified.
1

I.

FACTUAL BACKGROUND

Plaintiff worked as a cardiac monitor technician for Alameda Health System
(AHS).2 On or around August 25, 2013, she had a conversation with a supervisor, Mr.
Harding, wherein she asked why she was classified as a part time employee when she
worked full time, and why she did not receive shift differentials, overtime payments, or
the required number of paid breaks during shifts. Harding told her he would think about
her questions, but nothing changed. On September 5, 2013, plaintiff sent Harding a letter
(the September 5th letter) with the same questions. Two days later, she was fired due to
alleged “discrepancies between acceptable employment standards and those [plaintiff]
exhibited during [her] employment with AHS.”
Plaintiff filed a retaliation claim with the DIR’s Division of Labor Standards
Enforcement (DLSE), which was assigned to Deputy Labor Commissioner Daly.
Plaintiff also filed a wage claim with the DIR seeking overtime wages, rest period
premiums, differential pay, and waiting time penalties.
Daly investigated plaintiffs retaliation claim. Her supervisor, Ms. Healy, also
corresponded with plaintiff. Daly informed plaintiff that AHS stated that plaintiff had
failed to meet acceptable employment standards because her negligence allegedly
seriously harmed a patient. In July 2013, a patient died while plaintiff was working, but
plaintiff alleged that she was not negligent because the doctor on duty at the time verified
her reading of the patient’s electrocardiogram. AHS produced an email dated September
4, 2013 (the September 4th email) that supported its assertion that it decided to terminate
plaintiff before she authored the September 5th letter. The DIR concluded that plaintiff
could not prove the reason for her termination was a pretext. Consequently, the DIR
found that AHS terminated plaintiff for a legitimate, non-retaliatory reason. Healy
informed plaintiff by email in December 2016 that her retaliation claim would be denied.
A formal letter, dated December 29, 2016, set forth the DIR’s full determination and

2 The factual allegations are taken from plaintiffs complaint.
2

denial of plaintiff s claim, although plaintiff alleges she did not get this letter until after
she filed a lawsuit against the DIR in federal court.
Deputy Labor Commissioner Santos considered plaintiffs wage claim and
determined that the DIR lacked jurisdiction because AHS was a county hospital. He
advised plaintiff of this determination and that the DIR would not take any further action.
He also explained that plaintiff could pursue her wage claim “through any other
appropriate forum.”
Plaintiff sued the DIR, alleging that it committed libel in communications with her
by stating that: (1) plaintiff committed negligence towards a patient; (2) plaintiff missed
an appointment with the DIR; (3) the DIR sent plaintiff a final determination letter; (4)
plaintiff knew she was going to be fired prior to sending her September 5th letter; and (5)
the DIR did not have jurisdiction over wage claims from county employees. She also
alleged that the DIR committed negligence by: (1) failing to contact all of the witnesses
she listed; (2) recklessly disregarding as a witness the doctor who worked with plaintiff
when a patient passed away in July 2013; (3) processing her retaliation claim for the
extraordinary amount of time of over three years; (4) attempting to force her to withdraw
her retaliation claim; (5) failing to send her a determination letter, thus depriving her of
an opportunity to appeal; and (6) intentionally failing to recognize fraud and negligence
committed by AHS.
II.

PROCEDURAL HISTORY

In response to plaintiffs complaint, the DIR filed a demurrer, a motion to strike,
and an anti-SLAPP motion. After the DIR filed its anti-SLAPP motion, the court denied
plaintiffs motion for leave to conduct discovery.
The court issued a tentative ruling stating that it intended to grant the DIR’s antiSLAPP motion, and it took the demurrer, motion to strike, and anti-SLAPP motion under
submission after hearing. The court then continued each motion and requested
supplemental briefing for the anti-SLAPP motion on: (1) whether the DIR’s negligent
failure to send her a determination letter was a protected activity; (2) whether the court
could strike an entire cause of action where some allegations are based on protected
3

activity and others are not; (3) whether plaintiff claimed that the DIR’s failure to send her
a determination letter violated a mandatory statutory duty, and if so, what duty; and (4)
how the hourly rate in DIR’s attorney’s fees request was calculated.
Meanwhile, before the court held its final hearing on the demurrer, motion to
strike, and anti-SLAPP motion, plaintiff filed a “Notice of Petition: Petition for a Writ of
Mandate and a Declaratory Relief to Compel DIR to Issue Public Records” seeking to
compel the DIR to release public records under the PRA (PRA motion), and a separate
motion for prevailing party attorney’s fees and costs thereunder.
On August 17, 2018, the court granted the DIR’s anti-SLAPP motion with respect
to plaintiffs libel claim and certain allegations in her negligence claim, finding those
claims arose from protected activity and plaintiff had not established a probability of
success on the merits because the DIR was immune from suit under Government Code
sections 815.2, subdivision (b), 818.8, 821.6, and 820.2, and the DIR’s acts were
privileged under Civil Code section 47, subdivision (b). The court awarded the DIR
prevailing party attorney’s fees. The court then sustained the DIR’s demurrer to what
remained of plaintiffs negligence claim without leave to amend based on the same
privilege and government immunities, and it dismissed the motion to strike as moot. The
court denied plaintiffs PRA motion. The court’s order on the demurrer dismissed the
entire action.
On August 21, 2018, plaintiff filed a notice of appeal, indicating appeal from an
order or judgment under section 904.1, subdivision (a)(3)-(13). In an attachment, she
specified that she was appealing the court’s orders: (1) sustaining the demurrer; (2)
partially granting the anti-SLAPP motion and sustaining the DIR’s written objections to
plaintiffs evidence; (3) awarding the DIR attorney’s fees under section 425.16; (4)
dismissing the motion to strike; (5) denying the PRA motion; (6) ruling on two of
plaintiffs requests for judicial notice; and (7) overruling plaintiffs objections to the
DIR’s method of service of the anti-SLAPP motion.
On August 29, 2018, plaintiff filed another notice of appeal indicating appeals
from a judgment of dismissal after an order sustaining a demurrer, an order or judgment
4

J

under section 904.1, subdivision (a)(3)-(13), and, under the “other” box, plaintiff wrote
that she was appealing from the court’s rulings on her motion to take discovery and the
demurrer. In an accompanying attachment, plaintiff explained that she filed another
notice of appeal because she was unsure whether her prior notice was sufficient to appeal
the demurrer ruling.
On September 10, 2018, plaintiff filed a motion for prevailing plaintiffs
attorney’s fees under section 425.16. On October 4, 2018, the trial court denied this
motion and plaintiffs motion for prevailing party attorney’s fees under the PRA.
Plaintiff filed a third notice of appeal from these orders. This court consolidated the three
appeals.3
m.

DISCUSSION

Plaintiff is a pro se litigant with a deeply-held perception that she has been the
victim of injustice, but she demonstrates a limited understanding of the role (or rules) of
this court in considering such claims.
To begin, we reiterate the following well-established rules: (1) an appealed
judgment is presumed correct, and appellant bears the burden of overcoming the
presumption of correctness (Kurinij v. Hanna & Morton (1997) 55 Cal.App.4th 853,
865); (2) when an appellant fails to support an issue with reasoned argument and citations
to authority, we treat the point as waived (Kim v. Sumitomo Bank (1993) 17 Cal.App.4th
974, 979); (3) if a party fails to support an argument with the necessary citations to the
record, the argument will be deemed forfeited (Duarte v. Chino Community Hospital
(1999) 72 Cal.App.4th 849, 856; Cal. Rules of Court, rule 8.204(a)(1)(C)); and (4) a party
who chooses to represent himself on appeal “ ‘is to be treated like any other party and is

3 With her reply brief in two of the consolidated appeals, plaintiff filed a motion to
augment the record to include a March 2013 employee welcome letter from AHS. This
motion to augment is denied because plaintiff did not establish good cause excusing the
motion’s untimeliness and because the letter was not part of the record below (see former
Local Rule 7(b)-(c)). (Vons Companies, Inc. v. Seabest Foods, Inc. (1996) 14 Cal.4th
434, 444, fn. 3.)
5

entitled to the same, but no greater consideration than other litigants and attorneys

9 99

(.Nwosu v. Uba (2004) 122 Cal.App.4th 1229, 1247).
Plaintiff improperly demands that we apply less stringent standards to her as a pro
se litigant, and her briefing fails to include even a single citation to the record. We give
plaintiff no greater consideration than any other party before this court. (Nwosu v. Uba,
supra, 122 Cal.App.4th at pp. 1246-1247.) Rather than strike her improper briefing in its
entirety, however, we affirm the lower court’s judgment based on the absence of
reversible error. (Cal. Rules of Court, rule 8.204(e).)
A. The Anti-SLAPP Motion
The Legislature enacted section 425.16 to prevent the chilling effect of meritless
lawsuits that force an individual into litigation for exercising his or her right of petition or
free speech. “A cause of action against a person arising from any act of that person in
furtherance of the person’s right of petition or free speech under the United States
Constitution or the California Constitution in connection with a public issue shall be
subject to a special motion to strike, unless the court determines that the plaintiff has
established that there is a probability that the plaintiff will prevail on the claim.”
(§ 425.16, subd. (b)(1).) The purpose is to “weed[] out, at an early stage, meritless claims
arising from protected activity.” (Baral v. Schnitt (2016) 1 Cal.5th 376, 384 (Baral).)
“At the first step, the moving defendant bears the burden of identifying all
allegations of protected activity, and the claims for relief supported by them. When relief
is sought based on allegations of both protected and unprotected activity, the unprotected
activity is disregarded at this stage. If the court determines that relief is sought based on
allegations arising from activity protected by the statute, the second step is reached.
There, the burden shifts to the plaintiff to demonstrate that each challenged claim based
on protected activity is legally sufficient and factually substantiated. The court, without
resolving evidentiary conflicts, must determine whether the plaintiffs showing, if
accepted by the trier of fact, would be sufficient to sustain a favorable judgment. If not,
the claim is stricken. Allegations of protected activity supporting the stricken claim are
eliminated from the complaint, unless they also support a distinct claim on which the
6

A

plaintiff has shown a probability of prevailing.” (Baral, supra, 1 Cal.5th at p. 396.) We
review the trial court’s ruling on an anti-SLAPP motion de novo. (Flatley v. Mauro
(2006) 39 Cal.4th 299, 325-326.)
1. Prong One: Claims Arising from Protected Activity
Actions subject to dismissal under section 425.16 include those based on: “(1) any
written or oral statement or writing made before a legislative, executive, or judicial
proceeding, or any other official proceeding authorized by law, (2) any written or oral
statement or writing made in connection with an issue under consideration or review by a
legislative, executive, or judicial body, or any other official proceeding authorized by
law, (3) any written or oral statement or writing made in a place open to the public or a
public forum in connection with an issue of public interest, or (4) any other conduct in
furtherance of the exercise of the constitutional right of petition or the constitutional right
of free speech in connection with a public issue or an issue of public interest.” (§ 425.16,
subd. (e).)
To ascertain whether a claim arises from protected conduct, “the court shall
consider the pleadings, and supporting and opposing affidavits stating the facts upon
which the liability or defense is based.” (§ 425.16, subd. (b)(2).) “A claim arises from
protected activity when that activity underlies or forms the basis for the claim.” {Park v.
Board of Trustees of California State University (2017) 2 Cal.5th 1057, 1062.) The only
means by which a moving defendant can satisfy “the [‘arising from’] requirement is to
demonstrate that the defendant’s conduct by which plaintiffclaims to have been injured
falls within one of the four categories described in subdivision (e).” {Id. at p. 1063.)
In this case, plaintiffs claims arise from actions taken during DIR proceedings on
her retaliation and wage claims. The DIR, including the DLSE (which is a division
thereof headed by the Labor Commissioner), is an executive body, and DIR
investigations of retaliation and wage claims are proceedings recognized by law. (Labor
Code, §§ 50, 79, 98.7, 98.) Statements made in such proceedings fall under the antiSLAPP statute because these are proceedings of a governmental administrative body.
{Briggs v. Eden Council for Hope & Opportunity (1999) 19 Cal.4th 1106, 1115 [the
7

constitutional right to petition includes seeking administrative action].) The DIR argues
that plaintiffs libel claim arises from protected statements made by the DIR while
investigating and determining her wage and retaliation claims, and we agree.4
In contrast, the DIR does not argue that all of its allegedly negligent acts constitute
protected activity. The trial court found that the following acts of the DIR were not
protected as they do not constitute statements or writings made before or in connection
with an issue under review in an official proceeding: (1) failing to contact all of the
witnesses that plaintiff listed; (2) recklessly disregarding the doctor who worked with
plaintiff when a patient passed away in July 2013 as a witness; (3) processing plaintiffs
retaliation claim for the extraordinary amount of time of over three years; (4) failing to
send plaintiff a determination letter, thus depriving her of an opportunity to appeal; and
(5) intentionally failing to recognize fraud and negligence committed by AHS towards
plaintiff. On appeal, the DIR argues that only statements and writings made in the course
of its investigations, or in connection with issues under its consideration or review, are
protected. We thus accept for purposes of this appeal that five of the six negligent acts
plaintiff alleged do not arise from protected activity.
We reach a different conclusion regarding plaintiffs allegation that the DIR
negligently attempted to get her to withdraw her retaliation claim. The uncontradicted
declaration of DIR investigator Daly established that Daly informed plaintiff in writing in
August 2014 that the DIR would not render a favorable determination on plaintiffs
claim, Daly wrote that plaintiff could withdraw her claim if she preferred that the DIR not
file a public report, and Daly sent plaintiff the claim withdrawal form. As such, this
allegedly negligent act arose from protected activity—written statements made before or
4 In its anti-SLAPP order, the trial court summarized the libelous statements and
acts that it culled from plaintiffs introductory allegations and then summarized the five
libelous statements and the six negligent acts that plaintiff listed in the “summary”
section of her complaint. Plaintiff argues that in creating the summary of her
introductory allegations, the trial court unlawfully amended her complaint to include
additional injurious acts and statements. As plaintiff confirms that she challenges only
the five statements and six acts in the “summary” section of her complaint, we limit our
discussion to these allegations.
8

in connection with an issue under review in an official proceeding. (§ 425.16,
subd. (e)(1)—(2).)
2. Prong Two: Probability of Success on the Merits
The trial court found that plaintiff could not show a probability of success on the
merits because the DIR is immune from tort liability under Government Code sections
815.2, subdivision (b), 818.8, 821.6, and 820.2, as well as Civil Code section 47,
subdivision (b). We agree that statutory immunities and privileges bar plaintiffs suit.
Under the California Tort Claims Act (Gov. Code, § 810 et seq.), public entities
are immune from tort liability except as provided by statute {id., § 815, subd. (a)); public
employees are liable for their torts except as otherwise provided by statute (id., § 820,
subd. (a)); public entities are vicariously liable for the torts of their employees acting
within the scope of their employment (id, § 815.2, subd. (a)); and public entities are
immune where their employees are immune, except as otherwise provided by statute (id.,
§815.2, subd. (b)).
Plaintiff alleged direct statutory liability against the DIR only with respect to her
negligence claim under Civil Code section 1714, but this general statute cannot be used
to impose direct tort liability against a public entity. (All Angels Preschool/Daycare v.
County ofMerced (2011) 197 Cal.App.4th 394, 400 (All Angels).) Plaintiff also alludes
in her briefing to direct liability for the DIR’s negligent acts under Government Code
section 815.6. She did not allege this liability, nor did she demonstrate that she sought to
amend her complaint below, but even if she had, she could not prevail.
Government Code section 815.6 provides a basis to sue a public entity for direct
liability only in certain circumstances. (All Angels, supra, 197 Cal.App.4th at p. 400.)
“Where a public entity is under a mandatory duty imposed by an enactment that is
designed to protect against the risk of a particular kind of injury, the public entity is liable
for an injury of that kind proximately caused by its failure to discharge the duty unless
the public entity establishes that it exercised reasonable diligence to discharge the duty.”
(Gov. Code, § 815.6.) Three elements are necessary to establish liability. First, an
enactment must impose a mandatory duty that is obligatory in its directions to the public
9

entity rather than merely discretionary or permissive. (Haggis v. City ofLos Angeles
(2000) 22 Cal.4th 490, 498.) Next, the enactment must be designed to protect against the
particular kind of injury the plaintiff suffered, and, finally, the plaintiffs injury must have
been proximately caused by the public entity’s failure to discharge its mandatory duty.
{Guzman v. County ofMonterey (2009) 46 Cal.4th 887, 898 {Guzman).)
Plaintiff contends that Labor Code section 98.7 created the operative mandatory
duties. Under this statute, the DIR was required to investigate retaliation claims, but the
manner of performing the investigation is left to the DIR’s discretion. (Labor Code,
§ 98.7, subd. (b)5.) The DIR similarly retained discretion to determine whether a claim
has merit. {Id., § 98.7, subd. (c)-(d)(l)6.) The DIR’s statement that plaintiff could
withdraw her claim if she did not want a negative determination to be public record did
not violate any identifiable mandatory duty under Labor Code section 98.7.

5 At the time plaintiff submitted her retaliation claim, this subdivision of Labor
Code section 98.7 provided: “Each complaint of unlawful discharge or discrimination
shall be assigned to a discrimination complaint investigator who shall prepare and submit
a report to the Labor Commissioner based on an investigation of the complaint.... The
investigation shall include, where appropriate, interviews with the complainant,
respondent, and any witnesses who may have information concerning the alleged
violation, and a review of any documents that may be relevant to the disposition of the
complaint.... The investigation report submitted to the Labor Commissioner or designee
shall include the statements and documents obtained in the investigation, and the findings
of the investigator concerning whether a violation occurred. The Labor Commissioner
may hold an investigative hearing whenever the Labor Commissioner determines, after
review of the investigation report, that a hearing is necessary to fully establish the
facts ... .” (Labor Code, § 98.7, former subd. (b), italics added.)
6 At the time plaintiff submitted her retaliation claim, Labor Code section 98.7,
former subdivision (c) provided, “If the Labor Commissioner determines a violation has
occurred, he or she shall notify the complainant and respondent and direct the respondent
to cease and desist from the violation and take any action deemed necessary to remedy
the violation, including, where appropriate, rehiring or reinstatement, reimbursement of
lost wages and interest thereon, payment of reasonable attorney’s fees associated with
any hearing held by the Labor Commissioner in investigating the complaint, and the
posting of notices to employees....” Labor Code section 98.7 subdivision (d)(1) stated,
“If the Labor Commissioner determines no violation has occurred, he or she shall notify
the complainant and respondent and shall dismiss the complaint.”
10

Lacking a basis to impose direct liability against the DIR, plaintiffs claim
depends on the imposition of vicarious liability. (Gov. Code, § 815.2, subd. (a).) But
DIR employees, and hence the DIR, are immune for the acts over which plaintiff sues.
Pursuant to Government Code section 821.6, “A public employee is not liable for
injury caused by his instituting or prosecuting any judicial or administrative proceeding
within the scope of his employment, even if he acts maliciously and without probable
cause.” This statute has been primarily applied to immunize prosecuting attorneys and
similar individuals, but it is not restricted to such personnel and applies to all employees
of a public entity, including those who prosecute administrative disciplinary proceedings.
(Asgari v. City ofLos Angeles (1997) 15 Cal.4th 744, 756-757; Javor v. Taggart (2002)
98 Cal.App.4th 795, 808-811 [acts of employee of the Uninsured Employers Fund in
seeking reimbursement from an uninsured employer fell within Government Code section
821.6’s immunity].) This immunity has also been extended to numerous torts other than
false imprisonment or false arrest. (Cappuccio, Inc. v. Harmon (1989) 208 Cal.App.3d
1496 (Cappuccio) [defamation]; Javor, at pp. 808-811 [slander and clouding of title,
intentional infliction of emotional distress, and negligence].)
“California courts construe section 821.6 broadly in furtherance of its purpose to
protect public employees in the performance of their prosecutorial duties from the threat
of harassment through civil suits.” (Gillan v. City ofSan Marino (2007) 147 Cal.App.4th
1033, 1048.) Thus, Government Code section 821.6 has been found to cover the act of
filing or prosecuting a judicial or administrative complaint and acts and statements made
in investigations preliminary to such proceedings, even if formal action is not ultimately
pursued. (Richardson-Tunnell v. Schools Ins. Program for Employees (SIPE) (2007)
157 Cal.App.4th 1056, 1062, overruled on another ground in Quigley v. Garden Valley
Fire Protection Dist. (2019) 7 Cal.5th 798, 815, fn. 8; Ingram v. Flippo (1999)
74 Cal.App.4th 1280, 1291-1293 [statements in a press release concerning an
investigation were part of the prosecution process and immune]; Amylou R. v. County of
Riverside, (1994) 28 Cal.App.4th 1205, 1210-1211 [statements made by police officers
to the plaintiff in the course of an investigation were incidental to the investigation and
11

immune]; Cappuccio, supra, 208 Cal.App.3d atpp. 1498, 1500-1502 [immunity applied
to a statement that the plaintiffs were guilty of underweighing fish by an investigator for
the Department of Fish and Game]; Richards v. Department ofAlcoholic Beverage
Control (2006) 139 Cal.App.4th 304, 317-318 [immunity applied to statements made by
defendant’s employees during investigation of liquor license violations and preparation
for formal proceedings to remedy these violations]; Kayfetz v. State of California (1984)
156 Cal.App.3d 491 [immunity applied to publication of charges and disciplinary action
by the Division of Medical Quality of the Board of Medical Quality Assurance].)
In the administrative proceedings at issue, the DIR investigated plaintiffs claims
to determine whether they warranted further administrative or judicial action. (Labor
Code, §§ 98.7, subd. (b)-(d)(l), 98.) The written statements over which plaintiff sues
were made by DIR employees as part of the prosecution process. Further, the statements
were made during investigations within the scope of employment. An employee acts in
the course and scope of his employment when he is engaged in work he was employed to
perform, or when the act is incident to his duty and is performed for the benefit of his
employer, not to serve his own purposes or convenience. (Mazzola v. Feinstein (1984)
154 Cal.App.3d 305, 311.) Plaintiffs complaint and the DIR’s uncontradicted evidence
establish that the statements at issue were made during wage and retaliation claim
investigations by employees responsible for conducting these investigations with the
ultimate purpose of providing a basis for the Labor Commissioner to determine whether
to take action against the employer. (Labor Code, §§ 98, 98.3, 98.7, subds. (b)-(d).).
Plaintiff does not plead, or even argue, that the employees’ statements served their own
purposes. Under Government Code section 821.6, the DIR is immune.
The statements at issue are also privileged under Civil Code section 47,
subdivision (b) as broadcasts made “in any other official proceeding authorized by law.”
This “privilege applies to any communication (1) made injudicial or quasi-judicial
proceedings; (2) by litigants or other participants authorized by law; (3) to achieve the
objects of the litigation [or official proceeding]; and (4) that have some connection or
logical relation to the action.” {Jacob B. v. County ofShasta (2007) 40 Cal.4th 948, 955.)
12

Courts recognize that statements made in connection with administrative proceedings and
government investigations are privileged. (Lemke v. Sutter Roseville Medical Center
(2017) 8 Cal.App.5th 1292 [Civil Code section 47, subdivision (b)’s privilege applied to
allegedly disparaging statements a hospital made about a nurse to the California Board of
Registered Nursing in connection with the hospital’s internal investigation and in an
official proceeding before the Board]; Hansen v. Department of Corrections &
Rehabilitation (2008) 171 Cal.App.4th 1537, 1547 [same privilege applied to statements
communicated by personnel to officials of the California Department of Corrections and
Rehabilitation as part of an internal investigation concerning the plaintiffs alleged
wrongdoing].) The trial court correctly granted in part the DIR’s anti-SLAPP motion.7
3. Procedural Challenges to the anti-SLAPP motion
Having determined that DIR’s anti-SLAPP motion was properly granted in part,
we briefly address the procedural issues plaintiff raises.
First, plaintiff asks us to decide whether a represented party can be sanctioned for
using the wrong method of service for reply papers under section 1005, subdivision (c).
The DIR served plaintiff with its reply by regular, rather than overnight mail, and the trial
court denied plaintiffs objection thereto for lack of prejudice. But plaintiff does not
appeal this ruling, instead requesting that we answer this question for future litigants.
This court does not issue advisory opinions. (Nisei Farmers League v. Labor &
Workforce Development Agency (2019) 30 Cal.App.5th 997, 1022-1023 (Nisei Farmers
League).)
Next, although conceding that section 425.16 does not contain a deadline for the
trial court to decide an anti-SLAPP motion, plaintiff requests that we create one. This
court has no power to impose a procedural deadline not present in the statute.
{Western/California, Ltd. v. Dry Creek Joint Elementary School Dist. (1996)
50 Cal.App.4th 1461, 1488.)
7 Because the statements at issue are immune under Government Code sections
815.2, subdivision (b) and 821.6 and privileged under Civil Code section 47, subdivision
(b), we need not address Government Code section 820.2’s discretionary act immunity.
13

Finally, plaintiff asks us to confirm that section 425.16 is silent with respect to
when the party opposing the anti-SLAPP motion must receive the motion after a
complaint is filed. But plaintiff does not argue that section 425.16 requires the opposing
party to receive the motion within a certain time or that any such timeframe was breached
here. Again, this court does not give advisory opinions. (Nisei Farmers League, supra,
30 Cal.App.5th at pp. 1022-1023.)8
4. The Discovery Ruling
Before the DIR filed an anti-SLAPP motion, plaintiff served special
interrogatories, a request for production of documents, and requests for admission. She
challenges the trial court’s denial of her motion to take this discovery after the antiSLAPP motion triggered a discovery stay.
Generally, discovery is closed once a motion to strike under section 425.16 has
been filed. (§ 425.16, subd. (g).) However, the trial court may allow discovery limited to
the issues raised by the motion to strike upon “a timely and proper showing in response to
the motion to strike.” {Lafayette Morehouse, Inc. v. Chronicle Publishing Co. (1995)
37 Cal.App.4th 855, 868.) The “proper showing” includes “good cause” for the
requested discovery. (§ 425.16, subd. (g).) “Good cause” means only discovery relevant
to the plaintiffs burden of establishing a reasonable probability of prevailing on the
claim. (§ 425.16 subd. (b)(3).) Discovery that is not relevant to a defense asserted in the
anti-SLAPP motion is not permitted. (Burke, Anti-SLAPP Litigation (The Rutter Group
2018) 2:55; Blanchard v. DIRECTV, Inc. (2004) 123 Cal.App.4th 903, 922.) A trial
court’s decision to disallow discovery will not be disturbed unless it is “arbitrary,
8 We summarily reject plaintiffs assertions that objections to evidence can only
accompany a motion for summary judgment or adjudication; that the trial court erred in
treating assertions of fact in her opposing brief as argument, not evidence, where the
assertions were not accompanied by a sworn declaration under penalty of perjury
(§ 2015.5; Sweetwater Union High School Dist. v. Gilbane Building Co. (2019) 6 Cal.5th
931, 941-942 [declarations that meet the requirements of § 2015.5 are admissible in an
anti-SLAPP motion]); and that the court discounted her requests for judicial notice when
the record shows that the trial court granted these requests.

14

capricious, or a patently absurd determination.” (Tutor-Saliba Corp. v. Herrera (2006)
136 Cal.App.4th 604, 617.)
No abuse of discretion occurred here. Plaintiffs special interrogatories targeted
information about statements AHS made to the DIR explaining the reason for plaintiffs
termination (who communicated the reason, the dates and persons involved in the
communications, what AHS said about plaintiffs alleged negligence, what AHS said it
did to investigate the alleged negligence, and who communicated with plaintiff regarding
her termination before her September 5th letter). She sought AHS correspondence to the
DIR regarding her termination, AHS’s September 4th email, and all internal DIR
documents regarding her case investigation. Finally, she asked the DIR to confirm that
the following facts were true: the DIR communicated with AHS regarding the
termination; AHS stated plaintiff had committed medical negligence that harmed a
patient; AHS stated there was a September 4th email from plaintiffs supervisor to human
resources asking advice about how to terminate plaintiff; and plaintiff knew that her
employment would be terminated before her September 5th letter.
Plaintiff sued the DIR for libel and negligence. The DIR did not argue in its antiSLAPP motion that plaintiff could not prevail because the statements were true or
because she could not establish that the acts she alleged occurred. Instead, the DIR
argued that its acts were immune and privileged under Government Code sections 815.2,
subdivision (b), 821.6, 820.2, and 818.8, and Civil Code section 47, subdivision (b). It
also argued that plaintiff could not state a claim for direct liability under Government
Code section 815.6 because Labor Code section 98.7 imposed permissible rather than
mandatory duties. Plaintiff argued that good cause existed for the discovery because she
had a constitutional right of access to information concerning the conduct of the people’s
business and a right to access public records under the PRA. Because she did not
establish that the discovery she sought was targeted to defeating the DIR’s legal defenses,
the trial court properly denied her motion.

15

5. The Attorney’s Fees Award to the DIR
The trial court awarded the DIR attorney’s fees as the prevailing party on its antiSLAPP motion. A prevailing defendant on an anti-SLAPP motion is entitled to
mandatory attorney’s fees. (§ 425.16, subd. (c).) The amount of attorney’s fees awarded
is often computed in accordance with the familiar “lodestar” method. (Ketchum v. Moses
(2001) 24 Cal.4th 1122, 1135-1136 {Ketchum).) Under this method, “[t]he court
tabulates the attorney fee touchstone, or lodestar, by multiplying the number of hours
reasonably expended by the reasonable hourly rate prevailing in the community for
similar work.” {Christian Research Institute v. Alnor (2008) 165 Cal.App.4th 1315,
1321.) We review the grant of attorney’s fees to a prevailing defendant under section
425.16 for abuse of discretion. {Id. atp. 1322.)
Plaintiff makes the following challenges to the trial court’s attorney’s fees award:
(1) the DIR unreasonably inflated its fees through miscalculation; (2) the government
cannot recover attorney’s fees when it is represented by an attorney who is a government
employee; and (3) the trial court erred in allowing recovery for 21 hours of attorney work
at $250 an hour. We reject each challenge.
First, by merely referring us to her briefing in the trial court and by failing to cite
to the record, plaintiff does not properly raise the argument that the DIR unreasonably
inflated its fees through miscalculation. {Jones v. Superior Court (1994) 26 Cal.App.4th
92, 99 [“Issues do not have a life of their own: if they are not raised or supported by
argument or citation to authority, we consider the issues waived”].)9
Next, plaintiff does not establish that the trial court abused its discretion in
rendering the attorney’s fee award to the DIR. Her citations to Trope v. Katz (1995)
11 Cal.4th 274 {Trope) and Ellis Law Group, LLP v. Nevada City Sugar LoafProp., LLC
9 The DIR sought recovery for 27 hours of work at $400 an hour, for a total of
$10,800, although it mistakenly stated the total as $12,800 in its briefing below.
Plaintiffs miscalculation argument is in any event irrelevant because the trial court
awarded only $250 an hour for 21 hours of work for a total of $5,250. As plaintiff is
appearing in pro per, we appreciate the DIR’s representation at oral argument that it does
not intend to collect the attorney’s fee award from plaintiff.
16

(2014) 230 Cal.App.4th 244 (Ellis Law Group) do not convince us that the government
cannot receive attorney’s fees when represented by an attorney whom it employs. In
Trope, the Supreme Court held that an attorney acting in propria persona could not
recover attorney’s fees under Civil Code section 1717. The statute’s use of the terms
“incurred” and “attorney’s fees” implies the existence of an attorney-client relationship
(i.e., a party receiving and paying for professional services from a lawyer). {Trope, at
pp. 280-281.) A self-represented litigant does not pay attorney’s fees or become liable to
pay them in exchange for legal representation, and thus cannot recover these fees. {Ibid.)
In Ellis Law Group, the court similarly found that a law firm could not recover attorney’s
fees for its contract attorney’s work because the attorney was essentially a member of the
firm, and an attorney’s representation of the law firm defendant to which he or she
belongs is analogous to an attorney acting in propria persona as each represents his own
interests. {Ellis Law Group, at pp. 252-260.)
In contrast, in PLCM Group, Inc. v. Drexler (2000) 22 Cal.4th 1084, 1093 {PLCM
Group), the Supreme Court held that attorney’s fees could be recovered for in-house
counsel’s work under Civil Code section 1717. Unlike self-represented litigants, inhouse attorneys, like private counsel, do not represent their own personal interests and are
not seeking remuneration simply for lost opportunity costs that could not be recouped by
a nonlawyer. {Ibid.) Further, “[a] corporation represented by in-house counsel is in an
agency relationship, i.e., it has hired an attorney to provide professional legal services on
its behalf.” {Ibid.) We agree with the DIR that an attorney working in-house with the
government is akin to an attorney working in-house with a private company, and he or
she does not represent his or her own interests in suits against the government. {Ibid.
[“The payment of a salary to in-house attorneys is analogous to hiring a private firm on a
retainer”].)
Finally, the $5,250 award of attorney’s fees was reasonable and supported by the
record. Plaintiff does not argue that $250 was an umeasonable hourly rate, but instead
contends that the trial court should have determined counsel’s actual hourly salary. In
PLCM Group, the Supreme Court rejected a similar argument under Civil Code section
17

1717, noting “nothing in [the statute] compels such an approach.” (PLCM Group, supra,
22 Cal.4th at p. 1097.) Similarly, nothing in section 425.16 compels such an approach,
and the trial court did not abuse its discretion by using the approved lodestar method.
(See Ketchum, supra, 24 Cal.4th at p. 1131.)
The trial court’s award for 21 hours of work was also reasonable. The DIR
submitted a declaration from counsel stating that he spent 10 hours on the moving papers,
six hours on the reply, and five hours on the supplemental briefing and hearing.10 The
parties do not cite authority addressing how a trial court should approach an attorney’s
fees award where a defendant succeeds in striking some allegations in a cause of action
but not others after the Supreme Court clarified in Baral that an anti-SLAPP motion
could be used in this manner. But, before Baral, where counsel’s work on successful and
unsuccessful causes of action overlapped, the court looked to the defendant’s relative
success on the motion in achieving his or her objective, and the court could reduce the
amount of attorney’s fees awarded for partial success if appropriate. (Mann v. Quality
Old Time Service, Inc. (2006) 139 Cal.App.4th 328, 344—345.)
Here, counsel’s work on the successful libel claim and the successful and
unsuccessful negligence allegations largely overlapped. In its initial briefing, the DIR
argued that all of the acts that plaintiff sued over were subject to section 425.16, and the
DIR did not break down its briefing allegation by allegation. Even after the trial court
requested supplemental briefing on the mixed cause of action issues raised by plaintiffs
negligence claim, the DIR’s supplemental brief contained only minimal paragraphs
specific to one of plaintiffs six negligence allegations. As the trial court noted, the DIR
prevailed in large part on its motion. On this record, and in the absence of some
indication that the time spent attempting to defeat the five negligence allegations
specifically was segregable or distinctly identifiable, we cannot say that the court erred in
failing to discount the fee request to account for them.11
10 The DIR sought recovery for six additional hours of work related to plaintiffs
motion to take discovery and continue hearings on the demurrer and anti-SLAPP
motions, but the court did not allow recovery for these hours.
18

B. The Demurrer
After the trial court granted the DIR’s anti-SLAPP motion, plaintiffs remaining
negligence allegations were that the DIR failed to contact witnesses; it disregarded a key
witness; it processed her claim for an excessive duration; it did not send a determination
letter to her mailing address; and it intentionally failed to recognize the fraud and
negligence AHS committed against her. The trial court sustained the DIR’s demurrer to
plaintiffs negligence cause of action without leave to amend, finding that plaintiff failed
to state a claim for direct liability and various statutory immunities barred the imposition
of vicarious liability. The trial court then dismissed the action in its entirety.12 We affirm
this ruling.
1. Standard of Review
When a trial court sustains a demurrer, we review the complaint independently to
determine whether it states a valid cause of action, accepting all factual allegations as
true. {McCall v. PacifiCare of Cal., Inc. (2001) 25 Cal.4th 412, 415.) We construe the
allegations liberally and draw all reasonable inferences in the plaintiffs favor. {Coleman
v. Medtronic, Inc. (2014) 223 Cal.App.4th 413, 422.) When a court sustains a demurrer
11 We reject plaintiffs request that we rule for “all future SLAPP litigants” that the
filing of an anti-SLAPP motion cannot bar discovery where the documents sought are
also public records under the PRA as plaintiff provides no convincing argument or
authority to support this request.
12 Plaintiff argues that section 581, subdivision (f)(1) prevented the trial court from
dismissing the action without a party motion, but this argument is not convincing.
Section 581 sets forth nonexclusive means for dismissing a complaint. (§ 581, subd.
(f)(1) [allowing dismissal “[ejxcept where Section 597 applies, after a demurrer to the
complaint is sustained without leave to amend and either party moves for dismissal”],
subd. (m) [section 581 does not contain an exclusive enumeration of the court’s power to
dismiss]; Sousa v. Capital Co. (1963) 220 Cal.App.2d 744, 755 [section 581’s provisions
are not exclusive; the trial court had inherent power to enter a judgment of dismissal after
plaintiffs failed to amend their complaint within the time allotted].) Further, an appellate
court may treat an order sustaining a demurrer without leave to amend and dismissing the
action as a final judgment of dismissal {Daar v. Yellow Cab Co. (1967) 67 Cal.2d 695,
699), plaintiff treated the trial court’s order as such, and plaintiff cannot show prejudice
from dismissal given our review of her appeals and affirmance of the trial court’s orders
after dismissal on the merits.
19

without leave to amend, we review for abuse of discretion any determination that
amendment could not cure the defects and reverse only if the plaintiff bears his or her
burden of establishing a reasonable possibility that amendment could cure the defects.
{Brown v. Deutsche Bank National Trust Co. (2016) 247 Cal.App.4th 275, 279.)
2. Analysis
When addressing claims of government immunity, generally, a court first
determines whether the defendant owes a duty to the plaintiff before determining whether
the defendant is immune. {Caldwell v. Montoya (1995) 10 Cal.4th 972, 978, fn. 3
[describing the “ ‘duty before immunity’ ” doctrine].) Plaintiff pled a negligence claim
against the DIR under Civil Code section 1714, but, again, this statute cannot impose
direct tort liability on the DIR. {All Angels, supra, 197 Cal.App.4th at p. 400.) The trial
court thus correctly recognized that plaintiff cannot sue the DIR for negligence.
On appeal, plaintiff argues that she has stated or can state a claim under
Government Code section 815.6. To invoke Government Code section 815.6, plaintiff
must specifically plead the particular enactment that creates a mandatory duty. {Cerna v.
City of Oakland (2008) 161 Cal.App.4th 1340, 1349.) Her complaint contains only two
references to Government Code section 815.6 and fails to properly identity an enactment
creating a mandatory duty. Nonetheless, because plaintiff argues that she can amend and
that Labor Code section 98.7 imposed mandatory duties that the DIR violated, we
consider whether she establishes a reasonable probability of curing the defects in her
pleading.
As previously explained, three elements are necessary to invoke Government
Code section 815.6. An enactment must impose a mandatory duty that is obligatory in its
directions to the public entity rather than merely discretionary; the enactment must be
designed to protect against the particular kind of injury that the plaintiff suffered; and the
plaintiffs injury must have been proximately caused by the public entity’s failure to
discharge its mandatory duty. {Guzman, supra, 46 Cal.4th at p. 898.)
Here, Labor Code section 98.7 imposed a mandatory duty on the DIR to
investigate retaliation complaints, but the manner of conducting the investigation and the
20

ultimate determination of whether a violation occurred fell within the DIR’s discretion.
(Labor Code, § 98.7, subds. (b)-(d).) Allegations that the DIR failed to interview all
relevant witnesses and failed to recognize AHS’s negligence and fraud (i.e., found no
violation occurred) thus cannot establish a claim under Government Code section 815.6.
Similarly, plaintiff cannot show that the DIR had a mandatory duty to notify her of
its determination by mail. The DIR was required to notify a claimant if it rejected his or
her retaliation claim, but the statute contains no requirement that notification occur by
mail. (Labor Code, § 98.7, subd. (d).) The DIR notified plaintiff that her claim would be
rejected by email in December 2016, and, having received this notice, plaintiff sued the
DIR in federal court on December 29, 2016.
Plaintiff also asserts that the DIR violated a mandatory duty to timely determine
whether her claim had merit. The language of Labor Code section 98.7 supports this
argument. “The Labor Commissioner shall notify the complainant and respondent of his
or her determination under subdivision (c) or paragraph (1) of subdivision (d), not later
than 60 days after the filing of the complaint.” (Labor Code, § 98.7, former subd. (e).)
However, to establish a claim, plaintiff must also prove her injury was the type the statute
intended to prevent and proximate cause. (Guzman, supra, 46 Cal.4th at p. 898.) Here,
we need not address the second prong of this test because plaintiff cannot establish
proximate cause.
To establish proximate cause, the plaintiff must first show that a public entity’s
violation of a mandatory duty was a cause in fact of the plaintiffs injury. (State Dept, of
State Hospitals v. Superior Court (2015) 61 Cal.4th 339, 352.) Because a cause in fact
analysis often results in a broad liability (id. at p. 353 [“the purported [factual] causes of
an event may be traced back to the dawn of humanity”]), the court must also engage in an
analysis of various considerations of policy that limit an actor’s responsibility for the
consequences of his conduct. (Id. at p. 353.) Ordinarily proximate cause is a question of
fact, but where the only reasonable conclusion that can be drawn from the facts is an
absence of causation, the question is one of law. (Ibid.)

21

The only reasonable conclusion to be drawn from the facts alleged is that plaintiff
cannot establish proximate cause. Plaintiffs alleged injuries were caused by AHS’s
termination. Because she lost her position at AHS, she lost wages and health and life
insurance. She moved to Russia because of the lost health insurance, and, as a result, she
suffered a lost opportunity for study and career advancement in the U.S., a lost
opportunity to purchase a home and vehicle in the U.S., she incurred medical expenses
and other debt, and she endured pain and suffering from these losses. But the DIR
determined that plaintiffs retaliation claim lacked merit, and when she filed it and during
the ensuing proceeding, she did not have to exhaust administrative remedies under Labor
Code section 98.7 to sue for Labor Code violations. (Lloyd v. County ofLos Angeles
(2009) 172 Cal.App.4th 320, 331-332; Satyadi v. West Contra Costa Healthcare Dist.
(2014) 232 Cal.App.4th 1022, 1032-1033 [2013 amendments to the Labor Code
expressly stating that exhaustion of administrative remedies under Labor Code section
98.7 is not required clarified rather than changed existing law]; Labor Code § 98.7, subd.
(g), added by Stats. 2013, ch. 732, § 3, effective January 1, 2014 [exhaustion of
administrative remedies is not required].) The DIR’s failure to render its denial of
plaintiffs retaliation claim in 60 days thus was not a cause in fact of her alleged injuries,
and therefore not a proximate cause.
Finally, plaintiff argues that the DIR violated a mandatory duty to create an
investigation report of her retaliation claim. (Labor Code, § 98.7, subd. (b) [the
investigator shall “prepare and submit a report to the Labor Commissioner” that includes
“statements and documents obtained in the investigation, and the findings of the
investigator concerning whether a violation occurred”].) However, plaintiff attaches an
email to her complaint wherein DIR employee Healy informed plaintiff that she had
reviewed the investigation report for plaintiffs claim and sent the report to the Assistant
Chief Commissioner, and Healy pasted the report’s conclusion in the email to plaintiff.
We accept as true the contents of exhibits attached to a complaint. (See Barnett v.
Fireman’s Fund Ins. Co. (2001) 90 Cal.App.4th 500, 504-505; SC Manufactured Homes,
Inc. v. Liebert (2008) 162 Cal.App.4th 68, 83.) As such, plaintiff cannot establish a
22

reasonable probability that amendment would allow her to state a claim under
Government Code section 815.6.
Nor can plaintiff pursue her claim against the DIR on a theory of vicarious
liability. The DIR’s allegedly negligent, injurious acts all arose from its investigation and
determination of plaintiffs retaliation and wage claims. For the reasons previously set
forth in our affirmance of the trial court’s anti-SLAPP ruling, these acts are privileged
under Government Code sections 821.6 and 815.2, subdivision (b).13
C. Denial of Plaintiff’s “Petition ’’for the Disclosure of Public Records and Request
for Attorney’s Fees and Costs
Plaintiff made her first PRA request on March 22, 2018, and the DIR replied on
April 18, 2018. She made an additional PRA request on April 19, 2018, and the DIR
informed her that it needed a two-week extension to respond. On May 24, 2018, plaintiff
filed her PRA motion. In this motion, plaintiff also stated that she was looking for costs
and attorney’s fees under the PRA.
On June 13, 2018, the DIR responded to plaintiffs supplemental request. On July
19, 2018, plaintiff filed a motion for prevailing party attorney’s fees and costs wherein
she conceded that her friend had picked up the public records. The trial court denied the
PRA motion on August 17, 2018 because the PRA requires that a party seeking to compel
the release of improperly withheld public records file a complaint or verified petition in
the superior court and plaintiff filed no such petition or complaint; plaintiff did not
establish the required manner of service for a petition on the DIR; she did not establish
that the disclosure of documents she sought was substantively warranted; and she was not
a prevailing party entitled to attorney’s fees under the PRA. The trial court denied
plaintiffs additional motion for attorney’s fees and costs on October 4, 2018.
13 Plaintiff challenges the trial court’s ruling that the DIR’s motion to strike under
section 435 was moot in light of its ruling on the anti-SLAPP motion and demurrer. We
summarily reject this challenge because this ruling did not harm plaintiff (Marich v.
MGMJUA Telecommunications, Inc. (2003) 113 Cal.App.4th 415, 431 [appellants are
entitled to challenge only injurious trial court errors]), and because the motion was moot
in light of the trial court’s other rulings.
23

Plaintiff provides a laundry list of requests for relief with respect to the PRA
motion, but, in essence, she requests that we find that the trial court should have treated
her motion as a verified petition for writ of mandate under the PRA and declared her the
prevailing party on this petition.14 With respect to her first request, plaintiffs opening
brief is not supported by reasoned argument, authority, or citations to the record.
Plaintiff accordingly forfeited this issue on appeal. {Jones v. Superior Court, supra,
26 Cal.App.4th at p. 99 [“Issues do not have a life of their own: if they are not raised or
supported by argument or citation to authority, we consider the issues waived”].)
With respect to plaintiffs request for prevailing party attorney’s fees and costs,
under Government Code section 6259, former subdivision (d), “The court shall award
court costs and reasonable attorney’s fees to the requester should the requester prevail in
litigation filed pursuant to this section.” We review the trial court’s determination that a
litigant is a prevailing party under the PRA for abuse of discretion, and we defer to any
factual findings made by the trial court in connection with the ruling if they are supported
by substantial evidence. {Garcia v. Bellflower Unified School Dist. Governing Bd.
(2013) 220 Cal.App.4th 1058, 1064 {Garcia))
In determining whether a plaintiff in a PRA action has prevailed, courts have
found that a plaintiff “prevails” when a public record is disclosed only because the
plaintiff filed an enforcement action. {Los Angeles Times v. Alameda Corridor
Transportation Authority (2001) 88 Cal.App.4th 1381, 1391.) Some courts have also
determined that a PRA plaintiff may be a prevailing party entitled to attorney’s fees,
despite the lack of a favorable judgment or other court action, if the lawsuit was a catalyst
in motivating the defendant to provide the primary relief sought. {Garcia, supra,
220 Cal.App.4th at p. 1066; Rogers v Superior Court (1993) 19 Cal.App.4th 469, 482;
Belth v Garamendi (1991) 232 Cal.App.3d 896, 901.) The DIR urges us to apply the
former test and plaintiff the latter. The distinction between these tests does not matter
here, however, because plaintiffs argument fails even under a catalyst theory.
14 Plaintiff concedes that she has the public records requested, and she does not ask
this court to remand this matter for the trial court to decide her PRA motion on the merits.
24

*

The DIR produced some documents in response to plaintiffs first public records
request, and, although it was late in providing a response to her supplemental request, it
never refused to provide the public records. In addition, although plaintiff filed her PRA
motion before the DIR’s supplemental production, as the trial court recognized, her
motion was subject to a number of procedural challenges, and the court ultimately denied
it. Under these circumstances, the trial court could have properly found that plaintiffs
PRA motion was not a catalyst in motivating the DIR to disclose public records. The
court accordingly did not abuse its discretion in denying plaintiffs request for attorney’s
fees.15
D. The Motion for Prevailing Plaintiff Costs and Attorney’s Fees under section
425.16
Plaintiffs final challenge in these consolidated appeals is to the trial court’s order
denying her request for costs and attorney’s fees under section 425.16. She argues that
she is entitled to these fees and costs because she partially prevailed on the DIR’s antiSLAPP motion. We disagree.
Section 425.16, subdivision (c) provides that “[i]f the court finds that a special
motion to strike is frivolous or is solely intended to cause unnecessary delay, the court
shall award costs and reasonable attorney’s fees to a plaintiff prevailing on the motion,
pursuant to Section 128.5.” “Frivolous in this context means that any reasonable attorney
would agree the motion was totally devoid of merit.” (Gerbosi v. Gaims, Weil, West &
Epstein, LLP (2011) 193 Cal.App.4th 435, 450.) We review an order awarding or
denying attorney’s fees pursuant to section 425.16, subdivision (c) for abuse of
discretion. {Carpenter v. Jack in the Box Corp. (2007) 151 Cal.App.4th 454, 469—472.)

15 On October 4, 2018, the trial court denied plaintiffs additional motion for
attorney’s fees and costs under the PRA because it was repetitive of the request made in
the PRA motion; plaintiff, a self-represented litigant, was not entitled to attorney’s fees;
plaintiff was not the prevailing party under the PRA; and the court lacked jurisdiction
over the motion because of plaintiffs appeal. Because the trial court did not abuse its
discretion in determining that plaintiff was not a prevailing party under the PRA, we need
not address the remainder of the parties’ arguments with respect to this order.
25

No abuse of discretion occurred. The DIR succeeded in large part on its antiSLAPP motion. Some of plaintiffs negligence allegations survived, but the trial court’s
initial inclination to grant the entire motion and its request for supplemental briefing
suggests that the resolution of the motion was not predetermined or obvious. Under these
circumstances, the trial court did not abuse its discretion in finding that the DIR’s motion
was not frivolous or solely intended to delay. Furthermore, because plaintiff represented
herself, she cannot recover attorney’s fees (see Trope, supra, 11 Cal.4th at p. 280;
Musaelian v. Adams (2009) 45 Cal.4th 512, 514-515 [citing Trope and holding that, like
Civil Code section 1717, section 128.7 does not authorize the award of attorney’s fees to
self-represented litigants as sanctions]), and her costs were subject to fee waiver.16
IV.

DISPOSITION

The judgment is affirmed. The DIR is to recover its costs on appeal.

16 The DIR argues that the trial court did not have jurisdiction to decide this
motion because of plaintiff s notice of appeal. However, a trial court generally retains
jurisdiction to award attorney’s fees after the entry of a judgment or order,
notwithstanding an appeal from the judgment or order. (Carpenter, supra,
151 Cal.App.4th at p. 463 [“The perfecting of defendants’ appeal.. . did not
automatically stay proceedings in the trial court to award fees and costs under [the antiSLAPP statute].”]; Hoover Community Hotel Development Corp. v. Thomson (1985) 168
Cal.App.3d 485, 487 [appeal from grant of summary judgment did not deprive trial court
ofjurisdiction to consider request for attorney’s fees and costs].)
26

BROWN, J.

WE CONCUR:

STREETER, ACTING P. J.

TUCHER, J.

Drevaleva v. Dept, ofIndustrial Relations (A155165, A155187, A155899)

27

Appendix B.
Order of the Superior Court of Alameda
County that partially granted DIR's antiSLAPP Motion in case No. RG17881790,
August 17, 2018.

Division of Labor Standards
Enforcement
Attn: Seitz, Nicholas
455 Golden Gate Avenue
9th Floor
San Francisco, CA 94102

Tatyana E. Drevaleva
10660 Hidden Mesa Place
Monterey, CA 93940__

Superior Court of California, County of Alameda
Rene C. Davidson Alameda County Courthouse
No. RG17881790

Drevaleva
Plaintiff7Petitioner(s)

Order
VS.

Motion to Strike Complaint
Partial Grant

Department of Industrial Relations
Defendant/Respondent(s)
(Abbreviated Title)

The Special Motion to Strike Plaintiffs Complaint Pursuant to Code of Civil Procedure Section 425.16,
filed on March 9, 2018, by State of California, Department of Industrial Relations ("DIR"), Division of
Labor Standards Enforcement (sued as "Department of Industrial Relations"), was set for hearing on
June 26, 2018, at 3:00 p.m. in Department 22 of the court before the Honorable Harry Jacobs. A
tentative ruling was published and was contested. DIR appeared through counsel Nicholas Seitz.
Plaintiff Tatyana E. Drevaleva ("Plaintiff') appeared on her own behalf. The matter was argued and
submitted.
Prior to that hearing, the court held an initial hearing on April 10, 2018, at which Plaintiff appeared in
person as did counsel for DIR. After hearing argument and taking the matter under submission, the
court issued an order on May 18, 2018, continuing the hearing to June 12, 2018, for supplemental
briefing to be filed by May 30, 2018, and supplemental responses to such papers by June 5, 2018. The
hearing was thereafter continued to June 26, 2018 because of the court's unavailability on June 12,
2018. After considering such supplemental papers and responses, along with the papers filed before the
initial hearing on April 10, 2018, and the arguments of the parties at both hearings, the court ORDERS
that the motion is GRANTED IN PART and DENIED IN PART.
A.

General Standards

"Resolution of an anti-SLAPP motion involves two steps. First, the defendant must establish that the
challenged claim arises from activity protected by section 425.16.... If the defendant makes the required
showing, the burden shifts to the plaintiff to demonstrate the merit of the claim by establishing a
probability of success." (Baral v. Schnitt (2016) 1 Cal.5th 376, 384.)
"At the first step, the moving defendant bears the burden of identifying all allegations of protected
activity, and the claims for relief supported by them. When relief is sought based on allegations of both
protected and unprotected activity, the unprotected activity is disregarded at this stage. If the court
determines that relief is sought based on allegations arising from activity protected by the statute, the
second step is reached. There, the burden shifts to the plaintiff to demonstrate that each challenged
claim based on protected activity is legally sufficient and factually substantiated. The court, without
resolving evidentiary conflicts, must determine whether the plaintiffs showing, if accepted by the trier of
fact, would be sufficient to sustain a favorable judgment. If not, the claim is stricken. Allegations of
protected activity supporting the stricken claim are eliminated from the complaint, unless they also
support a distinct claim on which the plaintiff has shown a probability of prevailing." (Id., p. 396.)

Order

B.

The Alleged Activity on Which the Claims Are Based

The complaint, filed on November 8, 2017, alleges two causes of action: a First cause of action for
"Libel (Code of Civil Procedure, 340(c))" and a Second cause of action for "Negligence (California
Civil Code Section 1714(a))." (Complaint, unnumbered pp. 22-23 of 26.) Both causes of action arise
out of DIR's investigation and handling of retaliation and wage claims Plaintiff filed with the DIR
against her former employer, Alameda Health System ("AHS"), in September 2013 and October 2013.
(Complaint, unnumbered pp. 4 and 16; Decl. of Catherine Daly, H 6 and Exh. A; Decl. of Bobit Santos,

HI 6-9.)
1.

Libel

In the preliminary factual allegations, Plaintiff alleges the Deputy Labor Commissioners assigned to
investigate the retaliation claim, Catherine Daly and her supervisor and manager Joan Healy and Eric
Rood, incorrectly determined that no retaliation violation occurred and made statements to that effect
that constituted libel. (Complaint, unnumbered pp. 4-12.) More specifically, Plaintiff alleges that DIR
defamed her by: (1) Deputy Daly's statement in the June 16, 2014 letter about the legitimate, nonretaliatory reason offered by AHS for the termination of Plaintiffs employment (Complaint, p. 4:12-15,
Attachment 8); (2) Deputy Daly's and Deputy Healy's statements that Plaintiffs evidence of retaliation
was insufficient (id., p. 6:20-24); (3) Deputy Daly's statement in the June 16, 2014 letter about
Plaintiffs knowledge of the impending termination of her employment (id., p. 7:3-8; Attachment 8); (4)
Deputy Healy's statement in the December 19, 2016 email about Plaintiffs failure to keep a scheduled
appointment with Deputy Daly on December 13, 2016 (id., at p. 7:10-12; Attachment 15); (5) Assistant
Labor Commissioner Rood's statement in the December 29, 2016 letter that AHS's decision to terminate
Plaintiffs employment predated Plaintiffs alleged protected activity (id., p. 8:1-17; Attachment 17); (6)
Assistant Labor Commissioner Rood's statement in the December 29, 2016 letter about the legitimate,
non-retaliatory reason offered by AHS for the termination of Plaintiffs employment (id., p. 8:24-28;
Attachment 17); and (7) Deputy Bobit Santos's statement in the January 7, 2014 letter that the Labor
Commissioner did not have jurisdiction to adjudicate Plaintiffs wage claim (id., p. 16:15-20, 23:10-11).
In the portion of the complaint designated "Summary," Plaintiff summarizes the "First cause of action:
Libel (Code of Civil Procedure, 340(c)," as follows: "1) DIR said that I had committed negligence
towards the patient even though my former employer AHS never said it. Despite my numerous requests,
DIR never explained what my specific actions were that constituted negligence, 2) DIR said that I had
missed my appointment on September 13th, 2016" though "DIR never provided me with evidence that
the appointment really existed, 3) DIR lied that it had sent me the Determination Letter so I could file an
appeal with Director of DIR Ms. Baker... 4) DIR lied that I knew that I was going to be fired from
AHS prior to sending my letter to Mr. Harding.... [and] 5) DIR lied that it didn't have jurisdiction over
'county employees' and denied my wage claim." (Complaint, unnumbered pp. 22-23.)
2.

Negligence

Plaintiff also includes preliminary factual allegations as to negligence by DIR, including by: (1)
Assistant Labor Commissioner Rood's and Deputy Healy's alleged failure to mail the December 29,
2016 determination letter to Plaintiff (Complaint, unnumbered p. 7:15-21); (2) Assistant Labor
Commissioner Rood's statement in the December 29, 2016 determination letter that the question of
whether Plaintiff performed negligently during her employment for AHS was beyond the Labor
Commissioner's jurisdiction (id., p. 10:15-20); (3) Deputy Daly's alleged failure to ask AHS for a
detailed explanation of Plaintiff's actions that AHS considered negligent (id., p. 10:20-27); (4) Deputy
Daly's alleged failure to accept Plaintiffs explanation of why the termination of her employment was
retaliatory (id., p. 10:27-28); (5) Deputy Daly's alleged failure to interview all the witnesses identified in
Plaintiffs June 18, 2014 letter (id., p. 11:1-14); (6) Deputy Daly's alleged failure to investigate
Plaintiffs claim and suspect that AHS was lying (id., p. 11:15-21); (7) Assistant Labor Commissioner
Rood's statement in the December 29, 2016 determination letter that AHS explained to Plaintiff why her
complaints about alleged wage violations were invalid (id., p. 11:22-12:2); (8) Deputy Santos's
statement in the January 7, 2014 letter that "the Division does not have jurisdiction over claims for
overtime, rest period premiums, differential pay, or waiting time penalties for county employees" (id., p.
16:15-21); (9) Deputy Santos's alleged failure to advise in the January 7, 2014 letter how Plaintiff could
pursue her wage claim (id., p. 16:22-27); (10) DIR's investigation of Plaintiffs retaliation claim
spanning more than three years (id., p. 16:14-15); (11) DIR's alleged attempt to force Plaintiff to
withdraw her retaliation claim (id., p. 22:17-18); and (12) DIR's alleged failure to recognize fraud and

Order

negligence by AHS (id., p. 22:20-21.)
In the portion of the complaint designated "Summary," Plaintiff summarizes the "Second cause of
action: Negligence (California Civil Code Section 1714(a)," as follows: "1) DIR failed to contact with
all witnesses whom I listed in my letter to Ms. Daly dated June 18th, 2014 and August 6th, 2016, 2)
DIR recklessly disregarded the main witness Dr. Sina Rachmani who can confirm that my EKG reading
was correct, 3) DIR processed my claim for a huge amount of time - over three years causing me a lot
of suffering, pain, and pushing me into a huge financial debt, 4) DIR attempted to force me to withdraw
my claim thus depriving me the opportunity to get reinstated back to work and to get all not received
wages, benefits, and other compensation, 5) DIR never sent me the Determination letter thus depriving
me an opportunity to file an appeal with Ms. Baker, 6) intentionally failing to recognize fraud and
negligence committed by AHS towards me. DIR knew that I didn't perform negligence toward the
patient but continued to support my retaliator AHS." (Complaint, unnumbered p. 23.)
C. DIR Met Its Burden of Showing that Some of the Alleged Conduct is Protected.
The court determines that DIR met its initial burden of showing that some of the acts and omissions on
which Plaintiff bases her claims for relief, as described above, are acts of DIR "in furtherance of [its]
right of petition or free speech under the United States or California Constitution in connection with a
public issue" as defined in C.C.P. section 425.16. More specifically, as defined in section 425.16(e),
the quoted phrase "includes: (1) any written or oral statement or writing made before a legislative,
executive, or judicial proceeding, or any other official proceedinjg authorized by law, [and] (2) any
written or oral statement or writing made in connection with an issue under consideration or review by a
legislative, executive, or judicial body, or any other official proceeding authorized by law...." (C.C.P. §
425.16(e)(1) and (2).)
First, the court determines that each of the statements on which Plaintiff bases her first cause of action
for libel - as identified in detail in section B. 1 above - constitutes a "written or oral statement or writing
made before ... [an] official proceeding authorized by law" or "in connection with an issue under
consideration" in such an official proceeding. All of such communications and determinations occurred
in the course of an investigation into the retaliation and wage claims Plaintiff filed with the DIR
pursuant to Labor Code sections 98 et seq. The DIR, and the Division of Labor Standards Enforcement
which is a division thereof, headed by the Labor Commissioner, is an "executive body." (See. e.g., Gov.
Code §§ 11000, 15550; Lab. Code §§ 50 and 79.)
Plaintiffs filing of wage and retaliation claims with that body, pursuant to Labor Code sections 98 et
seq., including 98.7, initiated an "executive" proceeding or "official proceeding authorized by law."
(C.C.P. § 425.16(e)(1) and (2); see Lab. Code §§ 98.2 and 98.7 [authorizing the filing of a complaint
with the DIR by "[a]ny person who believes that he or she has been discharged or otherwise
discriminated against in violation of any law under the jurisdiction of the Labor Commissioner," which
is to be "investigated by a discrimination complaint investigator in accordance with this section"];
Dickens v. Provident Life And Acc. Ins. Co. (2004) 117 Cal.App.4th 705, 714 [contact between insurer
and federal authorities about a potential violation of law was "preparatory to commencing an official
proceeding authorized by law" and thus "within the ambit" of section 425.16]; Kibler v. Northern Inyo
County Local Hosp. Dist. (2006) 39 Cal.4th 192, 199 [hospital's peer review procedure qualifies as an
"official proceeding authorized by law," including because it is based on a "comprehensive scheme" for
licensure of physicians under California statute]; Hansen v. California Dept, of Corrections and
Rehabilitation (2008) 171 Cal.App.4th 1537, 1544 [internal investigation by Office of Internal Affairs
of California Department of Corrections and Rehabilitation into allegations that employee engaged in
misconduct and criminal activity was "an official proceeding authorized by law"]; Green v. Cortez
(1984) 151 Cal.App.3d 1068, 1073 [police investigation was "official proceeding authorized by law"
for purposes of section 47(b).])
As detailed in section B. 1 above, all of the challenged statements and determinations by Deputy Labor
Commissioners or Assistant Labor Commissioner Rood occurred in the course of the DIR's
investigation and determinations of Plaintiffs wage and retaliation complaints. For example, Plaintiff
alleges Deputy Daly and Deputy Healy defamed her by making statements about the reason offered by
her former employer, AHS, for termination of her employment, by stating that they found Plaintiffs
evidence of retaliation to be insufficient, by stating that Plaintiff knew of the impending termination of
her employment at the time she engaged in protected activity, and by stating that Plaintiff had failed to
keep a scheduled appointment with Deputy Daly. (See section B. 1, K 1, items (1) through (4) above,

Order

and *1 2, items (1), (2) and (4).) All of these statements were made in the course of their investigation
into Plaintiffs retaliation claim against her former employer, which was an "official proceeding." The
same is true of the alleged statements by Assistant Labor Commissioner Rood that AHS's decision to
terminate Plaintiffs employment predated Plaintiffs alleged protected activity and that AHS had offered
a legitimate, non-retaliatory reason for termination of Plaintiffs employment, as well as Deputy Santos's
statement that the Labor Commissioner did not have jurisdiction to adjudicate Plaintiffs wage claim.
(See section B . 1, ^ 1, items (5) through (7), and K 2, items (4) and (5) above.) The same is true of the
allegation that "DIR lied that it had sent me the Determination Letter...." (Section B. 1, H 2, item (3).)
All of these statements were made in an "executive ... or any other official proceeding authorized by
law" and "in connection with an issue under consideration or review by a[n] ... executive ... or any other
official proceeding authorized by law...." (C.C.P. § 425.16(e)(1) and (2); cf. Dickens, supra, 117
Cal.App.4th at p. 714 [statements and writings during executive branch investigation were protected
under section 425.16]; Seltzer v. Barnes (2010) 182 Cal.App.4th 953, 962 [a statement is "in
connection with" a proceeding if "it relates to the substantive issues in the [proceeding] and is directed to
persons having some interest" in it]; Hansen, supra, 171 Cal.App.4th at p. 1544 [allegedly false reports
of criminal activity in agency investigation were made "in connection with an issue under consideration
by an authorized official proceeding and thus constitute protected activity under subdivision (e)(2)."])
Second, the court determines that some (but not most) portions of the Second cause of action for
negligence constitute protected activity. This cause of action, like the libel cause of action, arises out of
DIR's investigation and handling of Plaintiffs retaliation and wage claims filed with the DIR in
September 2013 and October 2013. (Complaint, unnumbered pp. 4 and 16; Deck of Catherine Daly, |
6 and Exh. A; Deck of Bobit Santos, 6-9.)
Plaintiff argues that a "negligence" cause of action, in general, does not fall within C.C.P. § 425.16
because negligence "has nothing common with the definition of "any act of that person in furtherance of
the person's right of petition or free speech under the United States Constitution or the California
Constitution in connection with a public issue." (See Opp., p. 9, citing C.C.P. § 425.16(b)(1); see also
Robles v. Chalilpoyil (2010) 181 Cal.App.4th 566, 575-576 [cited in Plaintiffs Response filed 5/24/18,
p. 14]; Jespersen v. Zubiate-Beauchamp (2003) 114 Cal.App.4th 624, 631-632 [cited in Plaintiffs
5/24/18 Response, p. 15.) This is an overstatement. "The anti-SLAPP statute's definitional focus is not
the form of the plaintiffs cause of action but, rather, the defendant's activity that gives rise to his or her
asserted liability - and whether that activity constitutes protected speech or petitioning." (Navellier v.
Sletten (2002) 29 Cal.4th 82, 92.) "To determine whether a cause of action arises from protected
activity, we disregard its label and instead examine its gravamen by identifying [t]he allegedly wrongful
and injury-producing conduct... that provides the foundation for the claim." (Wilson v. Cable News
Network, Inc. (2016) 6 Cal.App.5th 822, 831-832 [internal quotes and citations omitted.])
In Robles, supra, 181 Cal.App.4th at pp. 575-576, for example, the court determined that allegations
that a retained expert breached his duty of care by "failing to continue to act as an independent expert
and/or disrupting the prosecution of... case by entering into a business relationship, agreement, and/or
proposal with ... defendants ... while said [experts] were still obligated to act as the plaintiffs' expert"
did not fall into any of the four categories of section 425.16(e) because it was not a written or oral
statement or "conduct... in connection with a public issue or an issue of public interest."
As to the matters specified in the preliminary allegations, identified in section B.2, first paragraph, items
(1), (3), (4), (5), (6), (9), (10) and (12), and as to items (1), (2), (3) and (5) identified in the second
paragraph of section B.2 above, the court determines that DIR has not met its burden of showing that
such conduct falls within any of the subdivisions of section 425.16(e). Section 425.16(e)(1) and (e)(2),
for example, encompass "any written or oral statement or writing" made in an official proceeding
authorized by law. (C.C.P. § 425.16(e)(1) and (2).) The alleged conduct identified above is in the
nature of delays, omissions and negligent handling of the claim rather than making a "written or oral
statement or writing" in the investigation. Though DIR's investigation into Plaintiffs retaliation and
wage claims constitutes an "official proceeding" as discussed above, the protection under those
subdivisions nevertheless applies only to a "written or oral statement or writing" made therein. (See,
e.g., Robles, supra, 181 Cal.App.4th at p. 576.) DIR has not cited sufficient authority that the alleged
negligent handling described in the portions of the negligence cause of action identified above qualify for
such protection.
The court is not persuaded by DIR's argument that an alleged omission - such as the alleged failure to

Order

send a determination letter to Plaintiff at a particular address - falls within the protection because the
right of free speech "comprises both a right to speak freely and also a right to refrain from doing so at
all." (DIR Supp. Brief, p. 2, quoting Beeman v. Anthem Prescription Management, LLC (2013) 58
Cal.4th 329, 342.) The Beeman case did not address the extent to which an alleged "failure to speak"
constitutes a "statement or writing" under section 425.16, and did not address that statute at all.
Instead, it addressed the extent to which a law requiring drug companies to conduct and furnish studies
to third-party payors could constitute a violation of the constitutional right to free speech. The court
does not find such authority sufficiently analogous to the issue before it to satisfy DIR's burden as to the
alleged negligence identified in section B.2, ^ 1, items (1), (3), (4), (5), (6), (9), (10) and (12), or section
B.2, K 2, items (1), (2), (3), (5) and (6).
Nevertheless, as to the alleged acts or omissions in section B.2,11, item (11), and | 2, item (4) - i.e.
that "DIR attempted to force me to withdraw my claim" - the court determines that this qualifies for
protection under section 425.16(e)(1) and (2). At unnumbered page 6 of the complaint, Plaintiff alleges
that "Ms. Daly even attempted to get me to withdraw my case (Attachment 14)" because she "wanted to
avoid a negative decision that would become a matter of public record." Although the attachments to
the complaint are not numbered, it appears that Attachment 14 is a form provided by DIR to Plaintiff
dated August 25, 2016, captioned "Withdrawal of DLSE Retaliation Claim," stating "I withdraw my
Labor Commissioner's Office Retaliation Complaint," with a space for her signature (which was not
signed). This qualifies as a written ... statement or writing" in the course of an official proceeding
authorized by law under section 425.16(e)(1) and (2).
The court also determines that DIR met its burden of showing that the alleged acts or omissions in
section B.2, f 1, items (2), (7), (8) and (11), qualify for protection under section 425.16(e)(1) and (2).
Items (2) and (7) are both statements by DIR in its December 2016 determination letter pertaining to its
investigation and conclusions. (Complaint, pp. 10:15-20 and 11:22-12:2.) Item (8) is a statement by
Deputy Santos that "the Division does not have jurisdiction over claims for overtime, rest period
premiums, differential pay, or waiting time penalties for county employees." (Id., p. 16:15-21.)
Plaintiffs allegations that DIR "negligently" made these determinations and statements does not change
the fact that the statements and determinations were made by Deputy Commissioners or the Assistant
Commissioner in the context of the official investigations initiated by Plaintiffs wage and retaliation
complaints. (See Lab. Code §§ 98.2 and 98.7.) Thus, such challenged activity constitutes a "written or
oral statement or writing made" in an executive or official proceeding, or "made in connection with an
issue under consideration or review" in such a proceeding, under section 425.16(e)(1) and (2).
In her initial and supplemental opposition papers, Plaintiff does not address or counter the cited and
other authority as to protected activity under sections 425.16(e)(1) and (2). Instead, she cites general
principles applicable to anti-SLAPP motions, argues (without citing authority) that "professional
negligence" is not an "act... in furtherance of the person's right of petition or free speech" under the
statute, and argues that she has never "prevented DIR from free speech and free petitioning." As
discussed above, the labeling of the statements and determinations by DIR deputy commissioners in the
course of their investigation as "professional negligence" does not alter the fact that such statements and
determinations were made in the course of an official proceeding authorized by law. The fact that
Plaintiff is suing the DIR based on such statements and determinations is precisely the form of "chilling"
activity that section 425.16 is designed to guard against, regardless of whether Plaintiff acted to restrain
DIR from making such statements and determinations in the first instance. (See, e.g., Navellier, supra,
29 Cal.4th at pp. 93 ["Considering the purpose of the [anti-SLAPP] provision, ... the nature or form of
the action is not what is critical but rather that it is against a person who has exercised certain rights,"
quoting Church of Scientology v. Wollersheim (1996) 42 Cal.App.4th 628, 652.])
D. The Court Cannot Strike the Allegations of Unprotected Activity.
In its initial memorandum, DIR argued that the entire negligence cause of action "is subject to a special
motion to strike ... if at least one of the underlying acts is protected activity, unless the allegations of
protected activity are merely incidental to the unprotected activity." (Memo., p. 8, citing Salma v.
Capon (2008) 161 Cal.App.4th 1275, 1287 ["A mixed cause of action is subject to section 425.16 if at
least one of the underlying acts is protected conduct, unless the allegations of protected conduct are
merely incidental to the unprotected activity."]) In Baral, supra, 1 Cal.5th at p. 396, however, the
California Supreme Court stated that "[w]hen relief is sought based on allegations of both protected and
unprotected activity, the unprotected activity is disregarded" in the first step of the anti-SLAPP analysis,
and if the plaintiff is unable to demonstrate a probability of prevailing on a claim based on protected

Order

conduct, allegations of such "protected activity" are stricken. The Court further stated: "the term 'cause
of action' in the anti-SLAPP statute ... refers to claims for relief that are based on allegations of
protected activity." (Id.)
In its order of May 18, 2018, the court continued the hearing in part for the parties to address whether,
consistent with Baral, the court can strike portions of the negligence claim that are not based on
protected activity. In its supplemental brief, DIR acknowledges that "in a 'mixed cause of action,' an
anti-SLAPP motion 'may challenge any claim for relief founded on allegations of protected activity,' but
'it does not reach claims based on unprotected activity.'" (Supp. Brief, p. 3, quoting Baral, supra, 1
Cal.5th at p. 382.) Thus, the court determines that it will not strike the allegations in the negligence
cause of action as to the matters identified in section B.2, first paragraph, items (1), (3), (4), (5), (6),
(9), (10) and (12), or items (1), (2), (3) and (5) identified in the second paragraph of section B.2 above.
E. Plaintiff Did Not Meet Her "Prong Two" Burden as to the Protected Activity.
"If the court determines that relief is sought based on allegations arising from activity protected by the
statute, ... the burden shifts to the plaintiff to demonstrate that each challenged claim based on protected
activity is legally sufficient and factually substantiated. The court, without resolving evidentiary
conflicts, must determine whether the plaintiffs showing, if accepted by the trier of fact, would be
sufficient to sustain a favorable judgment. If not, the claim is stricken." (Baral, supra, 1 Cal.5th at p.
396.) Plaintiff did not meet this burden as to all of the alleged conduct on which the libel cause of
action is based or as to the acts or omissions alleged in the negligence cause of action as identified in
section B.2, ^ 1, items (2), (7), (8) and (11), and *j 2, item (4).
As discussed in DIR's memoranda of points and authorities, Plaintiff's claims for relief based on such
statements and determinations by DIR are legally deficient as a matter of law in light of the statutory
immunities applicable to entities such as DIR who are sued for their statements and conduct in carrying
out their governmental functions.
First, the challenged statements and conduct are immune under Government Code section 820.2, which
states: "Except as otherwise provided by statute, a public employee is not liable for an injury resulting
from his act or omission where the act or omission was the result of the exercise of the discretion vested
in him, whether or not such discretion be abused." Under this statute, immunity applies to "basic policy
decisions [which have] ... been [expressly] committed to coordinate branches of government," and as to
which judicial interference would thus be "unseemly." (Caldwell v. Montoya (1995) 10 Cal.4th 972,
981, quoting Johnson v. State of California (1968) 69 Cal.2d 782, 793.) Although "ministerial"
decisions that merely implement a basic policy already formulated are not immunized, immunity applies
"to deliberate and considered policy decisions, in which a '[conscious] balancing [of] risks and
advantages ... took place." (Id.)
Plaintiff's claims that the deputy labor commissioners assigned to her wage and retaliation complaints,
and Assistant Labor Commissioner Rood, made false statements and erroneous determinations in the
course of investigating and determining whether to pursue her claims allege precisely the type of
"deliberate and considered policy decisions" covered by the section 820.2 immunity. (Cf. Masters v.
San Bernardino County Employees Retirement Assn. (1995) 32 Cal.App.4th 30, 45 ["Adjudicatory
decisions of administrative tribunals are a classic example of the kind of discretion vested in public
officials which is intended to be immunized"]; Yee v. Mobilehome Park Rental Review Bd. (City of
Escondido) (1998) 62 Cal.App.4th 1409, 1427 [members of mobile home rent review board were
immune from liability from their determination under section 820.2 despite claim they abused their
discretion in failing to receive substantial evidence in support of a rental increase decision]; Ogbom v.
City of Lancaster (2002) 101 Cal.App.4th 448, 460 [director of city department of community
development who presided at nuisance abatement hearing was entitled to immunity from trespass and
conversion claims based on entry and demolition of tenant's house following the hearing].)
Labor Code section 98.7, pertaining to complaints of employment discrimination made to the DIR, gives
the DIR broad discretion in investigating such complaints and determining whether to pursue claims
against the employer identified therein. (See, e.g., Lab. Code § 98.7(a) ["The division may, with or
without receiving a complaint, commence investigating an employer...."]; Lab. Code § 98.7(b)(1) ["The
Labor Commissioner may hold an investigative hearing whenever the Labor Commissioner determines
that a hearing is necessary to fully establish the facts.... If a complainant files an action in court against
an employer based on the same or similar facts as a complaint made under this section, the Labor

Order

Commissioner may, at his or her discretion, close the investigation. If a complainant has already
challenged his or her discipline or discharge through the State Personnel Board, or other internal
governmental procedure, or through a collective bargaining agreement grievance procedure that
incorporates antiretaliation provisions under this code, the Labor Commissioner may reject the
complaint."]; Lab. Code § 98.7(c)(1) ["If the Labor Commissioner determines a violation has occurred,
the Labor Commissioner may issue a determination in accordance with this section or issue a citation in
accordance with Section 98.74."]) Similar discretion is provided under Labor Code § 98.3, pertaining
to pursuing claims against employers for wages. (See Lab. Code § 98.3 ["The Labor Commissioner
may prosecute all actions for the collection of wages, penalties, and demands of persons who in the
judgment of the Labor Commissioner are financially unable to employ counsel and the Labor
Commissioner believes have claims which are valid and enforceable."])
Second, the challenged statements and determinations are immune under Government Code § 821.6,
which states: "A public employee is not liable for injury caused by his instituting or prosecuting any
judicial or administrative proceeding within the scope of his employment, even if he acts maliciously
and without probable cause." "California courts construe section 821.6 broadly in furtherance of its
purpose to protect public employees in the performance of their prosecutorial duties from the threat of
harassment through civil suits." (Doe v. State (2017) 8 Cal.App.5th 832, 843-844, quoting Gillan v.
City of San Marino (2007) 147 Cal.App.4th 1033, 1048.) "Courts have long held that acts undertaken
in the course of an investigation or in preparation for instituting a judicial proceeding cannot give rise to
liability, even if no proceeding is ultimately instituted." (Id., citing Gillan, supra, 147 Cal.App.4th at p.
1048; Richardson-Tunnell v. School Insurance Program for Employees (SIPE) (2007) 157 Cal.App.4th
1056, 1062; Ingram v. Flippo (1999) 74 Cal.App.4th 1280, 1293 [district attorney was immune under
section 821.6 for making known the results of his investigation into alleged wrongdoing, including in a
press release, "even though he decided not to prosecute an action at the time."]) As discussed above, the
applicable statutes give the Labor Commissioner broad discretion in investigating and deciding whether
to pursue administrative or judicial proceedings against an employer who is the subject of a retaliation
or wage claim.
Third, the allegedly libelous statements are immune under Government Code § 818.8, which states: "A
public entity is not liable for an injury caused by misrepresentation by an employee of the public entity,
whether or not such misrepresentation be negligent or intentional." Thus, Plaintiffs allegations that
DIR employees made false statements, such as that "DIR lied that it had sent me the Determination
Letter" or "DIR lied that I knew that I was going to be fired from AHS prior to sending my letter to Ms.
Harding" or "DIR lied that it didn't have jurisdiction over 'county employees' and denied my wage
claim" (Complaint, unnumbered p. 23:3-11), are subject to immunity under this statute.
Fourth, the challenged statements and conduct are privileged from liability under Civil Code section 47,
which states: "A privileged publication or broadcast is one made: (a) In the proper discharge of an
official duty" or "(b) ... (3) in any other official proceeding authorized by law...." (See, e.g., Ingram v.
Flippo, supra, 74 Cal.App.4th at pp. 1293-1294 [official duty privilege under section 47(a) and
47(b)(3) applied to statements by district attorney in press release as to the results of his investigation
into wrongdoing]; Silberg v. Anderson (1990) 50 Cal.3d 205, 213 [purpose of the privilege "is to assure
utmost freedom of communication between citizens and public authorities whose responsibility is to
investigate and remedy wrongdoing"].) This conclusion is consistent with numerous cases holding that
statements made in connection with government investigations are privileged under section 47. (See,
e.g., Braun v. Bureau of State Audits (1998) 67 Cal.App.4th 1382, 1389-1390 ["statements made in
furtherance of Reporting Act audits are absolutely privileged under Civil Code section 47"]; Kemmerer
v. County of Fresno (1988) 200 Cal.App.3d 1426, 1441 [civil service investigation]; O'Shea v. General
Telephone Co. (1987) 193 Cal.App.3d 1040, 1047-1049 [California Highway Patrol background
employment investigation]; Dongv. Board of Trustees (1987) 191 Cal.App.3d 1572, 1594 [National
Institutes of Health investigation]; Green v. Cortez (1984) 151 Cal.App.3d 1068, 1073 [internal police
investigation]; King v. Borges (1972) 28 Cal.App.3d 27, 32 [Real Estate Commissioner investigation].)
Fifth, Government Code section 815(a) states: "Except as otherwise provided by statute: (a) A public
entity is not liable for an injury, whether such injury arises out of an act or omission of the public entity
or a public employee or any other person." Plaintiff's second cause of action for "professional
negligence" seeks to impose liability on the DIR for allegedly negligently investigating Plaintiffs
retaliation claim, including by making the statements identified in section B.2,1 1, items (2), (7), (8)
and (11), and TJ 2, item (4), on which the negligence claim is based in part. The cited statutory basis for
such cause of action is Civil Code § 1714, which states a general principle that "[e]veryone is

Order

responsible ... for an injury occasioned to another by his or her want of ordinary care or skill in the
management of his or her property or person...." A common law negligence theory, even if based on
Civil Code § 1714, is not a sufficient statutory basis for imposing liability on a public entity. (See
Eastbum v. Regional Fire Protection Authority (2003) 31 Cal.4th 1175, 1180 and 1182.)
Although Plaintiff alleges elsewhere in the complaint that DIR or its deputy commissioners violated a
requires
"mandatory duty" pursuant to Government Code section 815.6, liability on this theory
proof that DIR was "under a mandatory duty imposed by an enactment" that was "designed to protect"
against the injury claimed and that the injury was "proximately caused" by the public entity's failure to
discharge its mandatory duty. (Haggis v. City of Los Angeles (2000) 22 Cal.4th 490, 498; Gov. Code
§ 815.6.) The first "and foremost" precondition to liability is that "the enactment at issue be obligatory,
rather than merely discretionary or permissive, in its directions to the public entity...." (Haggis, supra,
22 Cal.4th at p. 498.)
"Thus, actionable mandatory duties have been found where a county failed to release an arrestee after
dismissal of charges as required by Penal Code section 1384 (Sullivan v. County of Los Angeles (1974)
12 Cal.3d 710), or where the agency failed to register a dismissal of charges as required by Penal Code
section 1384 (Bradford v. State of California (1973) 36 Cal.App.3d 16), or where the entity failed to
release the arrestee under the duty to release on bail prescribed by Penal Code section 1295
(Shakespeare v. City of Pasadena (1964) 230 Cal.App.2d 375)." (de Villers v. County of San Diego
(2007) 156 Cal.App.4th 238, 260.) "In each of these cases, the required action was clear and discrete
and required no evaluation of whether it had in fact occurred." (Id.) "In contrast, when the statutorily
prescribed act involves debatable issues over whether the steps taken by the entity adequately fulfilled
its obligation, we believe the act necessarily embodies discretionary determinations by the agency
regarding how best to fulfill the mandate, and this discretion removes the duty from the type of activity
that supports a claim under section 815.6." (Id., p. 271.)
Plaintiffs allegations identified in section B.2,1[ 1, items (2), (7), (8) and (11), and U 2, item (4) - to the
effect that DIR employees made false statements about the Labor Commissioner's jurisdiction or about
Plaintiffs former employer's explanation about the alleged wage violations, or sent a letter to Plaintiff
encouraging her to withdraw her retaliation claim - do not state a violation of a duty to take "required
action [that] was clear and discrete and required no evaluation" sufficient for liability under section
815.6.
Plaintiffs opposition papers do not sufficiently address or overcome any of the above statutory
immunities or other arguments rendering her claims legally deficient, and Plaintiff failed to introduce
admissible evidence sufficient to support her causes of action despite such immunities. Instead, Plaintiff
argues that DIR failed sufficiently to "explain" or prove the truth of its statements and determinations in
the investigation, and argues that she did not perform medical negligence towards a patient as DIR
intimated in its investigation. (See, e.g., Opp., pp. 6-10.) As discussed above, however, Plaintiffs
claims are legally deficient because of statutory immunities and privileges designed to protect
governmental agencies and their employees against lawsuits directed to their statements and
discretionary decisions made in the course of carrying out their duties, regardless of the asserted validity
or invalidity of those decisions. Plaintiffs arguments urging the erroneous or deficient nature of the
investigations do not effectively counter this authority or meet her burden of showing the legal
sufficiency of her claims.
F. Plaintiffs Objections to DIR's Methods of Service
Plaintiffs Objections to DIR's Methods of Service of Replies and Written Objections to Evidence, filed
on April 4, 2018, and Plaintiffs Objection to DIR's Method of Serving me with two Oppositions on
April 04, 2018, are OVERRULED. Though DIR's reply papers were served by regular mail instead of
overnight mail, they were served well before the fifth court day before the hearing as required by C.C.P.
§ 1005(c), such that Plaintiff received such papers by that deadline. DIR's opposition to Plaintiffs
objections, filed on April 4, 2018, could not have been filed sooner given that Plaintiff did not serve her
objections until that date. Further, Plaintiff has not shown any prejudice from the method of service of
the reply papers, objections or opposition to Plaintiffs objections. (See C.C.P. § 475.) All parties had
a sufficient opportunity to address all papers filed by all parties in the two hearings held on this motion
as well as in the supplemental papers the court permitted in its order of May 18, 2018, after continuing
the motion for a second hearing.

Order

G. Defendant's Written Objections to Evidence
Defendant's Written Objections to Evidence, filed on March 23, 2018, and numbered 1 through 56, are
SUSTAINED IN PART and OVERRULED IN PART. All of these objections are to arguments made
in Plaintiffs memorandum of points and authorities in opposition to the motion, filed on March 21,
2018, on the ground that the arguments were not supported by a declaration under penalty of perjury.
Some of the arguments were supported by an accompanying declaration filed on March 21, 2018, so the
objections are overruled to the extent the declaration addressed the challenged matters. As to the
remaining objections, the court sustains them to the following extent: the court has treated the
challenged portions of the opposition memorandum as argument only, and not evidence.
H. Requests for Judicial Notice
DIR's Request for Judicial Notice, filed on March 15, 2018, is GRANTED, but the court does not take
judicial notice of the purported legal effect of the attached document.
Plaintiffs Request to take a Judicial Notice, filed on March 19, 2018, and Plaintiff's Second Request to
Take a Judicial Notice, filed on April 9, 2018, are GRANTED, but the court does not take judicial
notice of the truth of any of the matters asserted in the attached exhibits and does not make any
determination that the matters are relevant to the instant motion. The court notes that the Requests do
not include a reservation number on the caption page so it is not clear whether they relate to the instant
motion or to another motion that was on calendar on April 10, 2018, of which there were two others.
I. Reasonable Attorney's Fees
Because DIR prevailed in large part on its anti-SLAPP motion, it is entitled to its reasonable attorney's
fees and costs incurred on this motion. (See C.C.P. § 425.16(c)(1); Ketchum v. Moses (2001) 24
Cal.4th 1122, 1131.) The court has broad authority to determine the amount of a reasonable fee.
(Ketchum, supra, 24 Cal.4th at pp. 1136 and 1141; see also PLCM Group v. Drexler (2000) 22 Cal.4th
1084, 1094-1095.) The fee setting inquiry generally focuses on the "lodestar" - i.e., the number of
hours reasonably expended multiplied by the reasonable hourly rate. (Id., p. 1095; Ketchum, supra, 24
Cal.4th at p. 1136) That figure may then be adjusted based on numerous factors, "in order to fix the fee
at the fair market value for the legal services provided." (Id.).)
The declarations in support of the motion and reply attested that DIR's counsel expended ten hours on
the motion and six hours on the reply. DIR also seeks compensation for six hours spent in connection
with Plaintiffs motions to take discovery and to continue the hearings on the anti-SLAPP, demurrer and
other motion to strike hearing. The court will not include such additional time, as compensation is to be
limited to expenses in connection with the anti-SLAPP motion itself. (See, e.g., Lafayette Morehouse,
Inc. v. Chronicle Publishing Co. (1995) 39 Cal.App.4th 1379, 1383.) DIR also seeks compensation for
five hours at the hearing on April 10, 2018 and on the supplemental papers. The court will include
compensation for such time, bringing the total for the "lodestar" calculation to 21 hours.
As to the reasonable hourly rate, DIR has requested $400 per hour, attaching a declaration of Nicholas
Seitz asserting that this is "at or below the market with attorneys with my education and experience" and
discussing his experience and qualifications. Though the court finds the quality of Mr. Seitz's
representation high, and could award compensation at the $400 amount sought, the court determines
that an appropriate rate in the circumstances of the instant case is $250 per hour. The court further
determines that compensation for 21 hours at $250 per hour provides DIR with reasonable and
appropriate compensation for the services performed in connection with the anti-SLAPP motion.
J. Conclusion
In accordance with the above, IT IS ORDERED that the entire First cause of action for libel, as well as
the preliminary factual allegations described above in section B. 1, first paragraph, are STRICKEN
from the complaint. IT IS FURTHER ORDERED that the preliminary factual allegations described
above in section B.2, first paragraph, items (2), (7), (8) and (11), and section B.2, second paragraph,
item (4), are STRICKEN from the complaint.
IT IS FURTHER ORDERED that DIR is awarded fees against Plaintiff under C.C.P. section
425.16(c)(1) in the amount of $5,250.00.

Order

The clerk is directed to serve copies of this order, with proof of service, to counsel and to selfrepresented parties of record by mail, which shall satisfy the purposes of notice of entry of order under
C.C.P. § 1019.5(a).
Dated: 08/17/2018
facsimile

Judge Harry Jacobs

Order

Appendix C.
Order of the Superior Court of Alameda
County that sustained DIR's Demurrer
without leave to amend to the remaining
allegations within the Second Cause of
Action 'Professional Negligence" and that
dismissed the action in case No.
RG17881790, August 17, 2018.

Division of Labor Standards
Enforcement
Attn: Seitz, Nicholas
455 Golden Gate Avenue
9th Floor
San Francisco, CA 94102

Tatyana E. Drevaleva
10660 Hidden Mesa Place
Monterey, CA 93940__

Superior Court of California, County of Alameda
Rene C. Davidson Alameda County Courthouse
No. RG17881790

Drevaleva
Plaintif£/Petitioner(s)

Order
VS.

Demurrer to Complaint
Sustained

Department of Industrial Relations
Defendant/Respondent(s)
(Abbreviated Title)

The Demurrer to Plaintiffs Complaint, filed by State of California, Department of Industrial Relations
("DIR"), Division of Labor Standards Enforcement (sued as "Department of Industrial Relations") on
February 9, 2018, was set for hearing on June 26, 2018, at 3:00 p.m. in Department 22 before the
Honorable Harry Jacobs. A tentative ruling was published and was contested.
The matter was argued and submitted. Good cause appearing, IT IS HEREBY ORDERED as follows:
A. First Cause of Action
The demurrer to the First cause of action for libel is DROPPED as moot in light of the court's
accompanying order granting DIR's special motion to strike the First cause of action from the complaint
pursuant to C.C.P. section 425.16. Nevertheless, even if the court had not stricken the cause of action
pursuant to section 425.16, it would sustain DIR's demurrer to the entire First cause of action for the
reasons discussed below and in the court's accompanying order on the special motion to strike.
B. Second Cause of Action
As discussed in the court's accompanying order on the special motion to strike, the Second cause of
action for "Negligence (California Civil Code Section 1714(a))" arises out of DIR's investigation and
handling of retaliation and wage claims Plaintiff filed with the DIR against her former employer,
Alameda Health System ("AHS"), in September 2013 and October 2013. (Complaint, unnumbered pp.
4 and 16.)
In her preliminary factual allegations, Plaintiff refers to the following alleged acts or omissions as
supporting her "negligence" claim against DIR: (1) Assistant Labor Commissioner Rood's and Deputy
Healy's alleged failure to mail the December 29, 2016 determination letter to Plaintiff (Complaint,
unnumbered p. 7:15-21); (2) Assistant Labor Commissioner Rood's statement in the December 29, 2016
determination letter that the question of whether Plaintiff performed negligently during her employment
for AHS was beyond the Labor Commissioner's jurisdiction (id., p. 10:15-20); (3) Deputy Daly's
alleged failure to ask AHS for a detailed explanation of Plaintiffs actions that AHS considered negligent
(id., p. 10:20-27); (4) Deputy Daly's alleged failure to accept Plaintiff's explanation of why the
tennination of her employment was retaliatory (id., p. 10:27-28); (5) Deputy Daly's alleged failure to
interview all the witnesses identified in Plaintiffs June 18, 2014 letter (id., p. 11:1-14); (6) Deputy
Daly's alleged failure to investigate Plaintiffs claim and suspect that AHS was lying (id., p. 11:15-21);
(7) Assistant Labor Commissioner Rood's statement in the December 29, 2016 determination letter that
Order

AHS explained to Plaintiff why her complaints about alleged wage violations were invalid (id., p.
11:22-12:2); (8) Deputy Santos's statement in the January 7, 2014 letter that "the Division does not
have jurisdiction over claims for overtime, rest period premiums, differential pay, or waiting time
penalties for county employees" (id., p. 16:15-21); (9) Deputy Santos's alleged failure to advise in the
January 7, 2014 letter how Plaintiff could pursue her wage claim (id., p. 16:22-27); (10) DIR's
investigation of Plaintiffs retaliation claim spanning more than three years (id., p. 16:14-15); (11) DIR's
alleged attempt to force Plaintiff to withdraw her retaliation claim (id., p. 22:17-18); and (12) DIR's
alleged failure to recognize fraud and negligence by AHS (id., p. 22:20-21.)
In the portion of the complaint designated "Summary," Plaintiff summarizes the "Second cause of
action: Negligence (California Civil Code Section 1714(a)," as follows: "1) DIR failed to contact with
all witnesses whom I listed in my letter to Ms. Daly dated June 18th, 2014 and August 6th, 2016, 2)
DIR recklessly disregarded the main witness Dr. Sina Rachmani who can confirm that my EKG reading
was correct, 3) DIR processed my claim for a huge amount of time - over three years causing me a lot
of suffering, pain, and pushing me into a huge financial debt, 4) DIR attempted to force me to withdraw
my claim thus depriving me the opportunity to get reinstated back to work and to get all not received
wages, benefits, and other compensation, 5) DIR never sent me the Determination letter thus depriving
me an opportunity to file an appeal with Ms. Baker, 6) intentionally failing to recognize fraud and
negligence committed by AHS towards me. DIR knew that I didn't perform negligence toward the
patient but continued to support my retaliator AHS." (Complaint, unnumbered p. 23.)
In its accompanying order granting in part DIR's special motion to strike, the court ordered the portion
of the cause of action described in item (4) of the above paragraph, and items (2), (7), (8) and (11) of
the paragraph above that, stricken from the complaint pursuant to C.C.P. section 425.16. Thus, file
demurrer is DROPPED as moot to the extent it addresses those portions of the cause of action.
Nevertheless, even if the court had not stricken such portions of the cause of action pursuant to section
425.16, it would sustain DIR's demurrer to the entire Second cause of action for the reasons discussed
below.
The demurrer to the remaining portions of the Second cause of action is SUSTAINED, pursuant to
C.C.P. § 430.10(e), WITHOUT LEAVE TO AMEND. Plaintiff has not included allegations sufficient
to constitute a cause of action against DIR based on such alleged conduct. As discussed in DIR's
memoranda of points and authorities, Plaintiffs claims for relief are legally deficient as a matter of law
in light of the statutory immunities applicable to entities such as DIR who are sued for their statements
and conduct in carrying out their governmental functions.
First, the alleged statements and conduct supporting the negligence cause of action are immune under
Government Code section 820.2, which states: "Except as otherwise provided by statute, a public
employee is not liable for an injury resulting from his act or omission where the act or omission was the
result of the exercise of the discretion vested in him, whether or not such discretion be abused." Under
this statute, immunity applies to "basic policy decisions [which have] ... been [expressly] committed to
coordinate branches of government," and as to which judicial interference would thus be "unseemly."
(Caldwell v. Montoya (1995) 10 Cal.4th 972, 981, quoting Johnson v. State of California (1968) 69
Cal.2d 782, 793.) Although "ministerial" decisions that merely implement a basic policy already
formulated are not immunized, immunity applies "to deliberate and considered policy decisions, in
which a '[conscious] balancing [of] risks and advantages ... took place." (Id.)
Plaintiffs claims that the deputy labor commissioners assigned to her wage and retaliation complaints
failed to contact certain witnesses, "disregarded" another witness, unduly delayed processing her claim
and failed to send a determination letter to a specified address, as well as making false statements and
erroneous determinations in the process, allege precisely the type of involve the type of "deliberate and
considered policy decisions" covered by the section 820.2 immunity. (Cf. Masters v. San Bernardino
County Employees Retirement Assn. (1995) 32 Cal.App.4th 30, 45 ["Adjudicatory decisions of
administrative tribunals are a classic example of the kind of discretion vested in public officials which is
intended to be immunized"]; Yee v. Mobilehome Park Rental Review Bd. (City of Escondido) (1998) 62
Cal.App.4th 1409, 1427 [members of mobile home rent review board were immune from liability from
their determination under section 820.2 despite claim they abused their discretion in failing to receive
substantial evidence in support of a rental increase decision]; Ogbom v. City of Lancaster (2002) 101
Cal.App.4th 448, 460 [director of city department of community development who presided at nuisance
abatement hearing was entitled to immunity from trespass and conversion claims based on entry and
demolition of tenant's house following the hearing].)

Order

Labor Code section 98.7, pertaining to complaints of employment discrimination made to the DIR, gives
the DIR broad discretion in investigating such complaints and determining whether to pursue claims
against the employer identified therein. (See, e.g., Lab. Code § 98.7(a) ["The division may, with or
without receiving a complaint, commence investigating an employer...."]; Lab. Code § 98.7(b)(1) ["The
Labor Commissioner may hold an investigative hearing whenever the Labor Commissioner determines
that a hearing is necessary to fully establish the facts.... If a complainant files an action in court against
an employer based on the same or similar facts as a complaint made under this section, the Labor
Commissioner may, at his or her discretion, close the investigation. If a complainant has already
challenged his or her discipline or discharge through the State Personnel Board, or other internal
governmental procedure, or through a collective bargaining agreement grievance procedure that
incorporates antiretaliation provisions under this code, the Labor Commissioner may reject the
complaint."]; Lab. Code § 98.7(c)(1) ["If the Labor Commissioner determines a violation has occurred,
the Labor Commissioner may issue a determination in accordance with this section or issue a citation in
accordance with Section 98.74."]) Similar discretion is provided under Labor Code § 98.3, pertaining
to pursuing claims against employers for wages. (See Lab. Code § 98.3 ["The Labor Commissioner
may prosecute all actions for the collection of wages, penalties, and demands of persons who in the
judgment of the Labor Commissioner are financially unable to employ counsel and the Labor
Commissioner believes have claims which are valid and enforceable."])
Second, the alleged "negligent" acts or omissions are immune under Government Code § 821.6, which
states: "A public employee is not liable for injury caused by his instituting or prosecuting any judicial or
administrative proceeding within the scope of his employment, even if he acts maliciously and without
probable cause." "California courts construe section 821.6 broadly in furtherance of its purpose to
protect public employees in the performance of their prosecutorial duties from the threat of harassment
through civil suits." (Doe v. State (2017) 8 Cal.App.5th 832, 843-844, quoting Gillan v. City of San
Marino (2007) 147 Cal.App.4th 1033, 1048.) "Courts have long held that acts undertaken in the course
of an investigation or in preparation for instituting a judicial proceeding cannot give rise to liability,
even if no proceeding is ultimately instituted." (Id., citing Gillan, supra, 147 Cal.App.4th at p. 1048;
Richardson-Tunnell v. School Insurance Program for Employees (SIPE) (2007) 157 Cal.App.4th 1056,
1062; Ingram v. Flippo (1999) 74 Cal.App.4th 1280, 1293 [district attorney was immune under section
821.6 for making known the results of his investigation into alleged wrongdoing, including in a press
release, "even though he decided not to prosecute an action at the time."]) As discussed above, the
applicable statutes give the Labor Commissioner broad discretion in investigating and deciding whether
to pursue administrative or judicial proceedings against an employer who is the subject of a retaliation
or wage claim, including whether to commence an investigation, whether to hold an investigative
hearing, whether to close the investigation, whether to reject the complaint, whether to issue a
determination or send a citation in accordance with Section 98.74, and whether to prosecute an action
for the collection of wages, penalties, and demands of employees. (See, e.g., Lab. Code § 98.7, subds.
(a), (b)(1) and (c)(1), and §98.3.)
Third, Government Code section 815(a) states: "Except as otherwise provided by statute: (a) A public
entity is not liable for an injury, whether such injury arises out of an act or omission of the public entity
or a public employee or any other person." Plaintiffs second cause of action for "professional
negligence" seeks to impose liability on the DIR for allegedly negligently investigating Plaintiffs
retaliation claim, including by failing to interview certain witnesses, "negligently" believing explanations
made by AHS, negligently determining the Labor Commissioner lacked jurisdiction as to Plaintiffs
wage claims, and the like. The cited statutory basis for such cause of action is Civil Code § 1714,
which states a general principle that "[e]veryone is responsible ... for an injury occasioned to another by
his or her want of ordinary care or skill in the management of his or her property or person...." A
common law negligence theory, even if based on Civil Code § 1714, is not a sufficient statutory basis
for imposing liability on a public entity. (See Eastbum v. Regional Fire Protection Authority (2003) 31
Cal.4th 1175, 1180 and 1182.)
Fourth, to the extent the negligence claim is based on DIR's statements and determinations, DIR is
privileged from liability under Civil Code section 47, which states: "A privileged publication or
broadcast is one made: (a) In the proper discharge of an official duty" or "(b)... (3) in any other official
proceeding authorized by law...." (See, e.g., Ingram v. Flippo, supra, 74 Cal.App.4th at pp. 1293-1294
[official duty privilege under section 47(a) and 47(b)(3) applied to statements by district attorney in
press release as to the results of his investigation into wrongdoing]; Silberg v. Anderson (1990) 50
Cal.3d 205, 213 [purpose of the privilege "is to assure utmost freedom of communication between

Order

citizens and public authorities whose responsibility is to investigate and remedy wrongdoing"].) This
conclusion is consistent with numerous cases holding that statements made in connection with
government investigations are privileged under section 47. (See, e.g., Braun v. Bureau of State Audits
(1998) 67 Cal.App.4th 1382, 1389-1390 ["statements made in fiirtherance of Reporting Act audits are
absolutely privileged under Civil Code section 47"]; Kemmerer v. County of Fresno (1988) 200
Cal.App.3d 1426, 1441 [civil service investigation]; O'Shea v. General Telephone Co. (1987) 193
Cal.App.3d 1040, 1047-1049 [California Highway Patrol background employment investigation]; Dong
v. Board of Trustees (1987) 191 Cal.App.3d 1572, 1594 [National Institutes of Health investigation];
Green v. Cortez (1984) 151 Cal.App.3d 1068, 1073 [internal police investigation]; King v. Borges
(1972) 28 Cal.App.3d 27, 32 [Real Estate Commissioner investigation].)
Fifth, although Plaintiff alleges in one or two places in the complaint that DIR or its deputy
commissioners violated a "mandatory duty" pursuant to Government Code section 815.6, liability on
this theory requires establishing that DIR was "under a mandatory duty imposed by an enactment" that
was "designed to protect" against the injury claimed and that the injury w;as "proximately caused" by the
public entity's failure to discharge its mandatory duty. (Haggis v. City of Los Angeles (2000) 22
Cal.4th 490, 498; Gov. Code § 815.6.) The first "and foremost" precondition to liability is that "the
enactment at issue be obligatory, rather than merely discretionary or permissive, in its directions to the
public entity...." (Haggis, supra, 22 Cal.4th at p. 498.)
"Thus, actionable mandatory duties have been found where a county failed to release an arrestee after
dismissal of charges as required by Penal Code section 1384 (Sullivan v. County of Los Angeles (1974)
12 Cal.3d 710), or where the agency failed to register a dismissal of charges as required by Penal Code
section 1384 (Bradford v. State of California (1973) 36 Cal.App.3d 16), or wfiere the entity failed to
release the arrestee under the duty to release on bail prescribed by Penal Code section 1295
(Shakespeare v. City of Pasadena (1964) 230 Cal.App.2d 375)." (de Villers v. County of San Diego
(2007) 156 Cal.App.4th 238, 260.) "In each of these cases, the required action was clear and discrete
and required no evaluation of whether it had in fact occurred." (Id.) "In contrast, when the statutorily
prescribed act involves debatable issues over whether the steps taken by the entity adequately fulfilled
its obligation, we believe the act necessarily embodies discretionary determinations by the agency
regarding how best to fulfill the mandate, and this discretion removes the duty from the type of activity
that supports a claim under section 815.6." (Id., p. 271.)
Plaintiffs allegations supporting her "negligence" cause of action - including that DIR failed to contact
certain witnesses, "disregarded" another witness, unduly delayed processing Plaintiffs claim, failed to
send a determination letter to a specified address, made incorrect statements about the Labor
Commissioner's jurisdiction, negligently believed Plaintiffs former employer's explanation about the
matters, or sent a letter to Plaintiff encouraging her to withdraw' her retaliation claim - do not state the
type of failure to take "required action [that] was clear and discrete and required no evaluation"
sufficient for liability under section 815.6. For example, though Labor Code section 98.7(a) states that
a retaliation complaint "shall be investigated by a discrimination complaint investigator in accordance
with this section," and section 98.7(b)(1) states that the "investigation shall include, where appropriate,
interviews with the complainant, respondent, and any witnesses w7ho may have information concerning
the alleged violation, and a review of any documents that may be relevant to the disposition of the
complaint," it does not mandate interviewing the complainant, specified witnesses or other investigatory
actions in each and every case regardless of the circumstances, instead embodying "discretionary
determinations by the agency regarding how' best to fulfill the mandate." (de Villers, supra, 156
Cal.App.4th at p. 271.)
As to the sending of a "determination letter," Plaintiff has not included allegations as to a "mandatory
duty imposed by an enactment," which is "obligatory, rather than merely discretionary or permissive,"
that was "designed to protect" against the injury claimed or that the injury was "proximately caused" by
the public entity's failure to discharge its mandatory duty. (Haggis, supra, 22 Cal.4th at p. 498.)
Though section 98.7(d)(1) states that if "the Labor Commissioner determines no violation has occurred,
he or she shall notify the complainant and respondent and shall dismiss the complaint," it does not
specify that this must be in the form of a "determination letter" or specify exactly how the
Commissioner is to "notify" the complainant. Plaintiff has not alleged that she was not notified of the
determination (and in fact acknowledges she was) but instead that a "letter" was not sent to a particular
mailing address.
As to Plaintiffs allegation that the determination was not made within one year after the filing of the

Order

complaint as specified in Labor Code section 98.7(e), Plaintiff has not alleged facts showing harm
proximately caused to her by the alleged delay, or established that this provision of section 98.7(e) was
"designed to protect" Plaintiff against any such injury. (See Haggis, supra, 22 Cal.4th at p. 498; Gov.
Code § 815.6.) Plaintiff acknowledges she was notified early in file investigation that DIR was not
intending to exercise its discretion to pursue a claim against her former employer based on her
retaliation and wage claims, even though the formal determination as to the retaliation claim was not
sent until late 2016. Plaintiff has not alleged that she was precluded from pursuing her own claims
against AHS for alleged retaliation and/or wage claims, and in fact acknowledges she brought a
separate action against AHS in federal court (which is currently on appeal to the Ninth Circuit Court of
Appeals). Under the Labor Code statutes at issue, the Labor Commissioner has discretion whether to
pursue claims against an employer, independent of the employee's right to pursue such claims on his or
her own behalf.
Plaintiffs opposition papers do not sufficiently address or overcome any of the above statutory
immunities or other arguments rendering her claims legally deficient. Instead, Plaintiff argues that DIR
failed sufficiently to "explain" or prove the truth of its statements and determinations in the
investigation, and argues that she did not perform medical negligence towards a patient as DIR
intimated in its investigation. As discussed above, however, Plaintiffs claims are legally deficient
because of statutory immunities and privileges designed to protect governmental agencies and their
employees against lawsuits directed to their statements and discretionary decisions made in the course of
carrying out their duties, regardless of the asserted validity or invalidity of those decisions. Plaintiffs
arguments urging the erroneous or deficient nature of the investigations do not effectively counter this
authority or meet her burden of showing the legal sufficiency of her claims.
C. Plaintiff Did Not Request Leave to Amend
Plaintiffs opposition papers do not request leave to amend or make a sufficient showing how she could
amend to overcome the above deficiencies. (See Goodman v. Kennedy (1976) 18 Cal.3d 335, 349.) To
the contrary, in response to the court's inquiry at the hearing on June 26, 2018 whether Plaintiff was
requesting leave to amend or had a basis for amending, Plaintiff stated that she had no intention of
amending the complaint and instead would file an appeal if the demurrer were sustained. Accordingly,
the court does not grant leave to amend, which was not requested.
D. Requests for Judicial Notice
As discussed in the court's accompanying order on the special motion to strike, Plaintiff filed a Request
to take a Judicial Notice on March 19, 2018 and a Second Request to Take a Judicial Notice on April 9,
2018. The Requests do not include a reservation number on the caption page so it is not clear whether
they relate to the instant demurrer or to another motion that was on calendar on April 10, 2018, of
which there were two others. In the event the Requests pertain to the instant demurrer, they are
GRANTED, but the court does not take judicial notice of the truth of any of the matters asserted in the
attached exhibits and does not make any determination that the matters are relevant to the instant
demurrer.
E. Conclusion
In accordance with the above, IT IS ORDERED that DIR's demurrer to the complaint is SUSTAINED
WITHOUT LEAVE TO AMEND as to all portions of the complaint remaining after the court's
accompanying order striking portions thereof. As discussed above, even if the court had not stricken
such portions of the complaint pursuant to section 425.16, it would sustain DIR's demurrer to the entire
complaint for the reasons discussed above and in the court's accompanying order.
Accordingly, IT IS ORDERED that the entire action is DISMISSED.
The clerk is directed to serve copies of this order, with proof of service, to counsel and to selfrepresented parties of record by mail, which shall satisfy the purposes of notice of entry of order under
C.C.P. § 1019.5(a).

Order

.Z'"

Dated: 08/17/2018
facsimile

Judge Hany Jacobs

Order

Appendix D.
Order of the Superior Court of Alameda
County that denied my Motion for Specified
Discovery Despite the Pending anti-SLAPP
Motion, No. RG17881790, May 18, 2018.

Division of Labor Standards
Enforcement
Attn: Seitz, Nicholas
455 Golden Gate Avenue
9th Floor
San Francisco, CA 94102

Tatyana E. Drevaleva
10660 Hidden Mesa Place
Monterey, CA 93940__

Superior Court of California, County of Alameda
Rene C. Davidson Alameda County Courthouse
No. RG17881790

Drevaleva
Plaintiff/Petitionerfs)

Order
VS.

Motion for Discovery
Denied

Department of Industrial Relations
Defendant/Respondent( s)
(Abbreviated Title)

The Motion for Specified Discovery Despite the Pending anti-SLAPP Motion, filed by Plaintiff Tatyana
E. Drevaleva ("Plaintiff) on March 13, 2018, was set for hearing on April 10, 2018, at 3:00 p.m. in
Department 22 before the Honorable Harry Jacobs. A tentative ruling was published and was
contested.
The matter was argued and submitted. Good cause appearing, IT IS HEREBY ORDERED THAT the
motion is DENIED.
In this motion, Plaintiff seeks an order allowing her to conduct specified discovery notwithstanding the
filing of the Special Motion to Strike Plaintiffs Complaint Pursuant to Code of Civil Procedure Section
425.16, filed by State of California, Department of Industrial Relations ("DIR"), Division of Labor
Standards Enforcement on March 9, 2018. Pursuant to C.C.P. § 425.16(g): "All discovery proceedings
in the action shall be stayed upon the filing of a notice of motion made pursuant to this section. The stay
of discovery shall remain in effect until notice of entry of the order ruling on the motion. The court, on
noticed motion and for good cause shown, may order that specified discovery be conducted
notwithstanding this subdivision."
Decisions that have considered what constitutes such a showing of good cause have described it as a
showing "that a defendant or witness possesses evidence needed by plaintiff to establish a prima facie
case." ((Lafayette Morehouse, Inc. v. Chronicle Publishing Co. (1995) 37 Cal.App.4th 855, 868.)
"The showing should include some explanation of 'what additional facts [plaintiff] expects to
uncover....'" (1-800 Contacts, Inc. v. Steinberg (2003) 107 Cal.App.4th 568, 593, quoting Sipple v.
Foundation for Nat. Progress (1999) 71 Cal.App.4th 226, 247.) Discovery may not be obtained merely
to "test" the opponent's declarations. (Id.) Good cause does not exist if the plaintiffs complaint is
legally deficient, such that "no amount of discovery will cure that defect." (Garment Workers Center v.
Superior Court (2004) 117 Cal.App.4th 1156, 1162.)
Here, Plaintiff seeks responses to Requests for Admission, Special Interrogatories and a Request for
Production of Documents, aimed at having DIR produce the evidence it has (or admit it has no
evidence) as to DIR's purported statements, in the course of its investigation and determination of
Plaintiffs retaliation claim against her former employer Alameda Health Systems ("AHS"). More
specifically, Plaintiff contends as follows: "DIR said in its letter to me dated June 16, 2014 that I had
conducted negligence toward the patient, and I knew that I would be terminated from my employment
from AHS prior to sending my September 05, 2013 letter to Mr. Harding. DIR said in its December 29,
2016 Determination that I had conducted negligence towards the patient. DIR also mentioned about an
Order

alleged email from Ms. Littlepage who was my 'direct supervisor." According to DIR, that email
preceded my letter to Mr. Harding." (Motion, p. 3.) Plaintiff seeks to have DIR produce documents
and information about these alleged statements, which Plaintiff contends are defamatory, or admit it has
no such documents or information. (Id., pp. 4-6.)
The court determines that Plaintiff has not shown good cause for conducting the specified discovery
because it is immaterial to the determination of the pending anti-SLAPP motion. In its anti-SLAPP
motion, DIR has asserted that all of Plaintiffs claims are subject to statutory immunities applicable to
entities such as DIR who are sued for their statements and conduct in carrying out their governmental
functions. As discussed in the accompanying memorandum, the challenged statements and conduct
appear to fall generally within immunities under Government Code §§ 820.2 (discretionary immunity),
821.6 (prosecution immunity), 818.8 (misrepresentation immunity), 815(a) (general immunity absent
statutory liability), and Civil Code section 47 (official duty privilege). As further discussed therein,
Plaintiffs allegations that the deputy commissioners failed to interview some of the witnesses listed in
her papers, or erroneously believed AHS's witnesses or credited their documents rather than her own, or
otherwise failed to carry out the investigation with "due care," do not state the type of conduct required
for liability under section 815.6 for failure to discharge a mandatory duty (which is not the basis of
either of Plaintiffs causes of action in any event).
Although the court has not yet issued a ruling on that motion, the discovery that Plaintiff seeks to take is
not material to the court's determination of it. Even if the requested discovery were to result in evidence
that DIR does not have evidence that Plaintiff committed "medical negligence" toward a patient, or that
Plaintiff was unaware that she would be terminated before she sent a letter to her supervisor raising
workplace issues, this w'ould be insufficient to overcome the various immunities addressed in DIR's
motion. Such evidence goes only to whether the DIR's statements or determinations were well-founded,
rather than to whether they were made in the context of an official proceeding in carrying out the
discretion accorded to the DIR in investigations of this type so as to be entitled to immunity and
privilege. Plaintiffs requested discovery, which is focused on the allegedly erroneous or deficient nature
of the investigations, would be insufficient (even if it were to be fruitful) to counter the applicable
authority showing the legal deficiencies of her claims or meet her burden of showing the legal
sufficiency of her claims.
Further, Plaintiff argues in her reply on her accompanying motion to continue the hearing date that
"DIR is clearly unable to satisfy my Discovery request because DIR doesn't have any documented
evidence that I committed medical negligence towards the patient," that she "already obtained a copy of
my personnel record from AHS in 2013," and that she "already submitted requests to obtain public
records to DIR, office of Attorney General, and the Public Records Coordinator." (Reply, pp. 1-2.)
Further, Plaintiff has already attached various documents to her complaint (and requests for judicial
notice) purportedly supporting her contentions. Under the circumstances, it appears that further
discovery would serve no purpose in the determination of Plaintiffs claims, but would simply delay the
proceedings and impose needless burden and expense on the parties.
Plaintiffs objection to DIR's method of service of the opposition papers is overruled. Though the
papers were served by regular mail instead of overnight mail, they w'ere served well before the ninth
court day before the hearing as required by C.C.P. § 1005(c), such that Plaintiff received such papers
by that deadline. Further, Plaintiff has not shown any prejudice from the method of service. (See
C.C.P. § 475.)
The clerk is directed to serve copies of this order, with proof of service, to counsel and to selfrepresented parties of record by mail, which shall satisfy the purposes of notice of entry of order under
c£.P. § 1019.5(a).

Dated: 05/18/2018
Judge Robert McGuiness

Order

Appendix E.
Order of the Superior Court of Alameda
County that denied my Motion for
Reconsideration of the Court's Order that
denied my Motion for Specified Discovery
Despite the Pending anti-SLAPP Motion, No.
RG17881790, July 27, 2018.

Division of Labor Standards
Enforcement
Attn: Seitz, Nicholas
455 Golden Gate Avenue
9th Floor
San Francisco, CA 94102

Tatyana E. Drevaleva
10660 Hidden Mesa Place
Monterey, CA 93940__

Superior Court of California, County of Alameda
Rene C. Davidson Alameda County Courthouse
No. RG17881790

Drevaleva
PlaintiffTPetitioner(s)

Order
VS.

Motion for Reconsideration
Denied

Department of Industrial Relations
Defendant/Respondent( s)
(Abbreviated Title)

The Motion for Reconsideration of the Court's Order Denying My Motion for Specified Discovery
Despite the Pending anti-SLAPP Motion, filed by Plaintiff Tatyana E. Drevaleva ("Plaintiff”) on May
24, 2018, was set for hearing on July 26, 2018, at 3:00 p.m. in Department 22 before the Honorable
Harry Jacobs. A tentative ruling was published and was contested.
The matter was argued and submitted. Good cause appearing, IT IS HEREBY ORDERED THAT the
motion is DENIED.
The motion seeks reconsideration of the court's order of May 18, 2018 (the "5/18/18 order"), in which
the court denied Plaintiff’s motion seeking leave to conduct discovery notwithstanding the pending "antiSLAPP" motion filed by the defendant sued as Department of Industrial Relations ("DIR") on March 9,
2018. Preliminarily, the court needs to clarify that the order was issued by Judge Harry Jacobs, who
heard the motion and took it under submission on April 10, 2018, rather than by Judge Robert
McGuiness whose facsimile signature appears on it. This was the result of a clerical error, in that the
court prepared the order using its "Domain" program, which automatically placed Judge McGuiness's
signature on the order when Judge Jacobs approved it because the case is assigned for all purposes to
Judge McGuiness. Despite the all-purpose assignment, Judge Jacobs is temporarily handling some of
the matters assigned to Judge McGuiness, including the instant case. Accordingly, the 5/18/18 order is
hereby amended to reflect that it was issued by Judge Harry Jacobs instead of by Judge Robert
McGuiness.
As to the substance of the 5/18/18 order, the court determines that Plaintiff has not made a sufficient
showing to warrant reconsideration or modification of the order in any other respect. A party seeking
reconsideration of a prior order "shall state by affidavit what application was made before, when and to
what judge, what order or decisions were made, and what new or different facts, circumstances, or law
are claimed to be shown." (C.C.P. § 1008(a).) The "clear legislative intent [is] to restrict motions to
reconsider to circumstances where a party offers the court some fact or authority that was not
previously considered by it." (Gilberd v. AC Transit (1995) 32 Cal.App.4th 1494, 1500.) "A party
seeking reconsideration also must provide a satisfactory explanation for the failure to produce the [new
or different matter] at an earlier time." (New York Times Co. v. Superior Court (2005) 135
Cal.App.4th 206, 212.)
Although Plaintiff has cited some new authority and specified some new facts that occurred after the
hearing on the prior motion, such facts and authority do not warrant reconsideration of the 5/18/18
order. As stated in that order, after an anti-SLAPP motion is filed, discovery is stayed unless a party,
Order

on motion, shows "good cause" to take "specified discovery" while the motion is pending. (C.C.P. §
425.16(g).) Such showing "should include some explanation of'what additional facts [plaintiff] expects
to uncover....'" (1-800 Contacts, Inc. v. Steinberg (2003) 107 Cal.App.4th 568, 593, quoting Sipple v.
Foundation for Nat. Progress (1999) 71 Cal.App.4th 226, 247.) Discovery may not be obtained merely
to "test" the opponent's declarations. (Id.)
The "new" facts set forth in Plaintiffs declaration, which she asserts bear on her need to take discovery,
are: (1) that she received "two different versions of Ms. Littlepage's September 04, 2013 email and three
pages of handwritten notes from DIR that I was unable to read"; and (2) that "DIR still hasn't provided
me with any document that confirms the fact of medical negligence" or that "confirms interviews with
witnesses and the acts of reviewing records within AHS." (Drevaleva Deck, lfl| 5-7.) Plaintiff asserts
she needs to conduct discovery because she "need[s] to find the truth about this email." (Id., 111.) The
court does not find this to be "good cause" for taking additional discovery or for further delaying the
court's determination on the anti-SLAPP motion, which has already been argued a second time and is
under submission.
First, Plaintiff has not attached either version of the September 4, 2013 email to her declaration or
clearly explained how this bears on the determination of the anti-SLAPP motion. A copy of the email
was attached as Exhibit B to the Declaration of Catherine Daly filed with DIR's anti-SLAPP motion on
March 9, 2018. It pertains to a purported decision on that date by the director of nursing at Alameda
Health System ("AHS"), Plaintiffs prior employer, to release Plaintiff from probation on September 13,
2013. Regardless of the truth of that email, or whether there is another version of it, there does not
appear to be any dispute that DIR received a copy of it during its investigation of Plaintiffs retaliation
complaint against AHS. The court is not persuaded that any further evidence as to this email would be
material to the court's determination of the anti-SLAPP motion. That determination does not hinge on
the truth or accuracy of the September 4, 2013 email. Instead, as discussed in the 5/18/18 order, the
determination hinges on whether DIR is being sued for its statements and determinations in the context
of an official proceeding so as to be subject to immunities, as DIR argues. The truth of the email, or
whether it was altered, does not affect this.
Second, Plaintiffs argument that DIR has not provided her a document that "confirms the fact of
medical negligence" is not a "new fact" that provides "good cause" for Plaintiff to undertake "specified"
additional discovery. Instead, it is an argument going to the truth or falsity of AHS's asserted
justification for terminating Plaintiffs employment, or to the truth or falsity of statements made by DIR
as to such asserted reason. The court's determination of the anti-SLAPP motion does not hinge on this,
nor does it provide any reason for the court to delay determining that motion so Plaintiff can do further
discovery. As discussed in the 5/18/18 order, "[e]ven if the requested discovery were to result in
evidence that DIR does not have evidence that Plaintiff committed 'medical negligence' toward a patient,
or that Plaintiff was unaware that she would be terminated before she sent a letter to her supervisor
raising workplace issues, this would be insufficient to overcome the various immunities addressed in
DIR's motion. Such evidence goes only to whether the DIR's statements or determinations were wellfounded, rather than to whether they were made in the context of an official proceeding in carrying out
the discretion accorded to the DIR in investigations of this type so as to be entitled to immunity and
privilege."
Third, Plaintiffs newly raised citations to authority as to her right to obtain public records from DIR (or
the State of California), and the fact that she served Public Records Act ("PRA") requests, do not bear
on the court's determination of the anti-SLAPP motion. In the 5/18/18 order, the court did not preclude
Plaintiff from obtaining any such documents or determine she is not entitled to them. Instead, it merely
denied Plaintiffs request to serve discover}' in the instant case, outside the context of any PRA requests,
and to delay the determination of the anti-SLAPP motion based thereon. As stated in the 5/18/18 order,
"it appears that further discovery would serve no purpose in the determination of Plaintiffs claims, but
would simply delay the proceedings and impose needless burden and expense on the parties."
Plaintiffs arguments in the instant motion, as in the prior motion, focus primarily on her argument that
AHS's and/or DIR's statements about her competency in her prior job were untrue, rather than on an
asserted need to take "specified" additional discovery bearing on the issues raised in the anti-SLAPP
motion. Plaintiff has already made her argument about the asserted untruth of such statements
repeatedly in her opposition to the anti-SLAPP motion. Additional discovery is not necessary to bring
that argument, once again, to the court's attention. Further, at the hearing on July 27, 2018, Plaintiff
acknowledged she received copies of what appeared to be all of DIR's claim investigation files with the

Order

exception of documents withheld pursuant to claims of privilege. This further undercuts any assertion
that Plaintiff needs to conduct additional discovery, beyond such PRA requests, at this point.
The clerk is directed to serve copies of this order, with proof of service, to counsel and to selfrepresented parties of record by mail, which shall satisfy the purposes of notice of entry of order under
C.C.P. § 1019.5(a).
Dated: 07/27/2018
facsimile

Judge Harry Jacobs

Order

Appendix F.
Order of the Superior Court of Alameda
County that directed the Parties to
complete additional briefing regarding DIR's
anti-SLAPP Motion, No. RG17881790, May
18, 2018.

Division of Labor Standards
Enforcement
Attn: Seitz, Nicholas
455 Golden Gate Avenue
9th Floor
San Francisco, CA 94102

Tatyana E. Drevaleva
10660 Hidden Mesa Place
Monterey, CA 93940__

Superior Court of California, County of Alameda
Rene C. Davidson Alameda County Courthouse
No. RG17881790

Drevaleva
Plaintifi/Petitioner(s)

Order

vs.

Motion to Strike Complaint
Department of Industrial Relations
Defendant/Respondent(s)
(Abbreviated Title)

The Special Motion to Strike Plaintiffs Complaint Pursuant to Code of Civil Procedure Section 425.16,
filed by State of California, Department of Industrial Relations ("DIR"), Division of Labor Standards
Enforcement (sued as "Department of Industrial Relations") on March 9, 2018, was set for hearing on
April 10, 2018, at 3:00 p.m. in Department 22 before the Honorable Harry Jacobs. A tentative ruling
was published and was contested.
The matter was argued and submitted. Good cause appearing, IT IS HEREBY ORDERED THAT the
motion is CONTINUED to 3:00 p.m. on June 12, 2018, in Dept. 22, Administration Building, 4th
Floor, 1221 Oak St., Oakland, for supplemental briefing as discussed below.
A. Background
The complaint, filed by Plaintiff Tatyana E. Drevaleva ("Plaintiff) on November 8, 2017, alleges two
causes of action: a first cause of action for "Libel (Code of Civil Procedure, 340(c))" and a second
cause of action for "Negligence (California Civil Code Section 1714(a))." (Complaint, unnumbered pp.
22-23 of 26.) Both causes of action arise out of DIR's investigation and handling of retaliation and
wage claims Plaintiff filed with the DIR against her former employer, Alameda Health System ("AHS"),
in September 2013 and October 2013. (Complaint, unnumbered pp. 4 and 16; Decl. of Catherine Daly,
II 6 and Exh. A; Decl. of Bobit Santos, ^*| 6-9.)
The libel cause of action alleges the following: "1) DIR said that I had committed negligence towards
the patient even though my former employer AHS never said it. Despite my numerous requests, DIR
never explained what my specific actions were that constituted negligence, 2) DIR said that I had missed
my appointment on September 13th, 2016" though "DIR never provided me with evidence that the
appointment really existed, 3) DIR lied that it had sent me the Determination Letter so I could file an
appeal with Director of DIR Ms. Baker.... 4) DIR lied that I knew that I was going to be fired from
AHS prior to sending my letter to Mr. Harding.... [and] 5) DIR lied that it didn't have jurisdiction over
'county employees' and denied my wage claim." (Complaint, unnumbered pp. 22-23.)
The negligence cause of action alleges: "1) DIR failed to contact with all witnesses whom I listed in my
letter to Ms. Daly dated June 18th, 2014 and August 6th, 2016, 2) DIR recklessly disregarded the main
witness Dr. Sina Rachmani who can conform that my EKG reading was correct, 3) DIR processed my
claim for a huge amount of time - over three years causing me a lot of suffering, pain, and pushing me
into a huge financial debt, 4) DIR attempted to force me to withdraw my claim thus depriving me the
opportunity to get reinstated back to work and to get all not received wages, benefits, and other
Order

compensation, 5) DIR never sent me the Determination letter thus depriving me an opportunity to file an
appeal with Ms. Baker, 6) intentionally failing to recognize fraud and negligence committed by AHS
towards me. DIR knew that I didn't perform negligence toward the patient but continued to support my
retaliator AHS." (Complaint, unnumbered p. 23.)
B. The Court Needs Additional Briefing as to One Aspect of the Second Cause of Action
On April 9, 2018, the court published a detailed tentative ruling stating that it was inclined to grant the
anti-SLAPP motion in full. The tentative ruling stated that it appeared DIR met its initial burden of
showing that the acts and omissions on which Plaintiff bases her claims for relief are acts of DIR "in
furtherance of [its] right of petition or free speech under the United States or California Constitution in
connection with a public issue" as defined in C.C.P. section 425.16. The tentative ruling stated, among
other things, that "all of the challenged statements and determinations by deputy commissioners
occurred in the course of the DIR's investigation and determinations of Plaintiffs wage and retaliation
complaints...."
In reviewing the papers filed in connection with the motion and considering the arguments made at the
hearing, the court determines that it needs supplemental briefing from the parties as to a matter that has
not been sufficiently addressed. As reflected above, one of the bases for the "negligence" cause of
action is Plaintiffs allegation that "DIR never sent me the Determination letter thus depriving me an
opportunity to file an appeal with Ms. Baker. .." DIR does not expressly address this allegation in
arguing that the negligence cause of action is based on protected activity. Instead, it argues that the
entire negligence cause of action "is subject to a special motion to strike ... if at least one of the
underlying acts is protected activity, unless the allegations of protected activity are merely incidental to
the unprotected activity." (Memo., p. 8, citing Salma v. Capon (2008) 161 Cal.App.4th 1275, 1287
["A mixed cause of action is subject to section 425.16 if at least one of the underlying acts is protected
conduct, unless the allegations of protected conduct are merely incidental to the unprotected activity."])
In Baral v. Schnitt (2016) 1 Cal.5th 376, 396, the California Supreme Court articulated the following
framework for analyzing anti-SLAPP motions: "At the first step, the moving defendant bears the
burden of identifying all allegations of protected activity, and the claims for relief supported by them.
When relief is sought based on allegations of both protected and unprotected activity, the unprotected
activity is disregarded at this stage. If the court determines that relief is sought based on allegations
arising from activity protected by the statute, the second step is reached. There, the burden shifts to the
plaintiff to demonstrate that each challenged claim based on protected activity is legally sufficient and
factually substantiated. The court, without resolving evidentiary conflicts, must determine whether the
plaintiffs showing, if accepted by the trier of fact, would be sufficient to sustain a favorable judgment.
If not, the claim is stricken. Allegations of protected activity supporting the stricken claim are
eliminated from the complaint, unless they also support a distinct claim on which the plaintiff has shown
a probability of prevailing." The Court further stated: "the term 'cause of action' in the anti-SLAPP
statute ... refers to claims for relief that are based on allegations of protected activity." (Id.)
It is not clear to what extent the above framework affects the principle quoted above from Salma v.
Capon, supra, 161 Cal.App.4th at p. 1287, that an entire cause of action is subject to being stricken if it
is based in part on protected activity that is not merely incidental to the cause of action. It is also not
clear the extent to which Plaintiffs allegation that DIR never sent her the "Determination letter" is an
allegation of "protected activity" under section 425.16(e). Accordingly, the court requests supplemental
briefing from the parties on the following matters:
(1) Is Plaintiffs allegation that "DIR never sent me the Determination letter thus depriving me an
opportunity to file an appeal with Ms. Baker" an allegation of "protected activity" under C.C.P. §
425.16(e)?
(2) If the above alleged act or omission is not itself "protected activity," can the court nevertheless strike
it as part of the second cause of action, if DIR establishes that the second cause of action is based on
other protected activity that is not merely incidental to the cause of action? In other words, if DIR
meets its initial burden to show that the second cause of action is based at least in part on non-incidental
protected activity, does the burden shift to Plaintiff to show that her negligence cause of action is legally
sufficient and factually substantiated as to all aspects, including as to the aspects not based on protected
activity? Under Baral v. Schnitt, supra, can the court strike out an entire cause of action even if
portions of it are not based on protected activity?

Order

(3) Aside from whether it constitutes protected activity, does Plaintiff have a viable claim for relief
against DIR based on her allegation that "DIR never sent me the Determination letter thus depriving me
an opportunity' to file an appeal with Ms. Baker"? Does Plaintiff contend that this is a mandatory duty
based on a statute or regulation? If so, which?
(4) If DIR prevails on the anti-SLAPP motion, it is entitled to its reasonable attorney's fees and costs
incurred on it. (See C.C.P. § 425.16(c)(1).) The declarations in support of the motion and reply attest
that DIR's counsel expended ten hours on the motion and six hours on the reply, but do not sufficiently
address how the hourly rate of $400.00 was calculated.
(5) The court notes that Plaintiff filed several declarations on April 24, 2018 and April 30, 2018,
despite their not being filed in connection with a specific motion (and not having a hearing date or
reservation number reflected on the caption) and despite not having leave of court to do so. On May 2,
2018, DIR filed an "Opposition to Plaintiffs Pleading Entitled 'Public Records from DIR,"' to which
Plaintiff filed a reply on May 8, 2018. The court will not consider any of these papers, as the court did
not grant any party leave to file them. Notwithstanding the above, in light of the fact that the court has
now set the matter for a continued hearing, the court grants leave to both parties to submit brief and
concise supplemental papers that address information or documents obtained after the hearing on April
10, 2018, and that bear on the issues raised in the anti-SLAPP motion. Any such papers must clearly
explain how the new information and documents bear on issues raised in the anti-SLAPP motion.
By May 30, 2018, both parties may file and serve supplemental papers addressing the matters in items
(1) through (5) above. By June 5, 2018, both parties may file and serve supplemental papers
responding to the supplemental papers filed by the other party.
The clerk is directed to serve copies of this order, with proof of service, to counsel and to selfrepresented parties of record by mail, which shall satisfy the purposes of notice of entry of order under
C.C.P. § 1019.5(a).
Dated: 05/18/2018
Judge Robert McGuiness

Order

Appendix G.
Order of the Superior Court of Alameda
County that denied my Verified Petition for
Writ of Mandate to Compel DIR to Issue the
Improperly Withheld Public Records, No.
RG17881790, August 17, 2018.

Tatyana E. Drevaleva
10660 Hidden Mesa Place
Monterey, CA 93940__

Superior Court of California, County of Alameda
Rene C. Davidson Alameda County Courthouse
No. RG17881790

Drevaleva
Plaintiff/Petitioner(s)

Order
VS.

Petition for Alternative Writ of Mandate
Denied

Department of Industrial Relations
Defendant/Respondent(s)
(Abbreviated Title)

The Petition for Writ of Mandate and Declaratory Relief to Compel DIR to Issue Public Records, filed
by Plaintiff Tatyana Drevaleva ("Plaintiff') on May 24, 2018, was set for hearing on July 26, 2018, at
3:00 p.m. in Department 22 before the Honorable Harry Jacobs. A tentative ruling was published and
the parties appeared at the hearing to address it.
The matter was argued and submitted. Good cause appearing, IT IS HEREBY ORDERED THAT the
petition is DENIED.
First, the petition is procedurally deficient. It seeks an order compelling the defendant sued as
Department of Industrial Relations ("DIR") to "issue Public Records ... pursuant to Government Code
Section 6259(a) and to obtain ... Declaratory Relief." Relief pursuant to section 6259(a) requires a
"verified petition to the superior court of the county where the records or some part thereof are situated
[attesting] that certain public records are being improperly withheld from a member of the public...."
Instead, Plaintiffs "petition" is in the fonn of a notice of motion, filed in her pending case seeking
damages from DIR for alleged libel and negligence. Further, the "petition" itself is not "verified," which
requires the pleader to certify or declare "under penalty of perjury that the foregoing is true and
correct." (See C.C.P. § 2015.5; Myzer v. Emark Corp. (1996) 45 Cal.App.4th 884, 890, n. 4.)
Although there is an accompanying "Declaration to Petition" signed under penalty of perjury, attesting
to some of the same matters raised in the "petition," it does not specifically identify the Public Records
Act ("PRA") requests made by Plaintiff. While this deficiency may be lessened to some extent by the
memorandum and attached exhibits, this does not entirely cure the deficiency.
It is also not clear that Plaintiff properly served the "petition" on DIR. (See, e.g., C.C.P. § 1096
[application for writ "must be served in the same manner as a summons in a civil action, except when
otherwise expressly directed by order of the Court."])
DIR also asserts the petition needed to be accompanied by a "summons." The court is not persuaded
that DIR's authority establishes this.
Second, even if the court were to overlook the procedural irregularities and consider the petition as a
properly filed and served petition for relief under Government Code section 6259(a), such requested
relief is unwarranted. DIR's opposition, filed on July 6, 2018, attests that DIR replied to Plaintiffs first
PRA request on April 18, 2018, and replied to Plaintiffs second PRA request on June 13, 2018. (Decl.
of Nicholas Patrick Seitz, 5 and 8.) Other than asserting that the second response was untimely,
Plaintiff has not specified in what manner, if any, the documents produced by DIR were insufficient. In
correspondence to the court on July 20, 2018, Plaintiff acknowledged that her friend picked up the
records on July 19, 2018, but stated that she "will not be able to view the Public Records myself prior to
the hearing" and will ask the court to review them in camera at the hearing. As stated at the hearing,
Order

there is no good cause for the court to review the documents in camera given that Plaintiff had not yet
reviewed the records herself by the time of the hearing or identified what (if any) deficiencies there were
in the production.
Instead, as stated at the hearing, the court took the matter under submission and directed Plaintiff to file
and serve a status report by August 6, 2018, after her review of the public records provided by DIR
and/or the State of California in response to her PRA requests. The status report was solely to address
whether Plaintiff contended "that certain public records are being improperly withheld" from her
pursuant to her PRA requests. (See Gov. Code section 6259(a).) The status report was solely to
address the sufficiency or deficiency of the DIR's and/or State's production of records in response to the
PRA requests.
On August 3, 2018, Plaintiff filed a "Statement that I received Public Records from DIR." The
statement attests that Plaintiffs friend Libya picked up the records from the Labor Commissioner on
July 19, 2018, and that Plaintiff received the records from Libya on July 21, 2018. Though the
statement is accompanied by "Objections to Public Records from DIR," those objections do not identify
any deficiency in DIR's production of records. Instead, Plaintiff discusses the content of the records,
including whether they support Plaintiffs contention that there are no records reflecting the truth of
DIR's statements about her termination or the reasons therefor. Such discussion is irrelevant to a
petition under Government Code section 6259(a), authorizing relief where a petitioner attests "that
certain public records are being improperly withheld from a member of the public...." As Plaintiff has
not attested that any such records are being improperly withheld from her, there is no basis for relief
under that statute.
Third, the petition or motion seeks "declaratory relief' but does not sufficiently specify the form of such
relief, stating that Plaintiff is "asking the Court to confirm two ca[u]ses of action - Libel and
Professional Negligence." (Memo., p. 4.) The court does not understand this request. Further, it falls
outside the scope of Government Code §§ 6258 and 6259, which authorize proceedings to enforce a
member of the public's "right to inspect or to receive a copy of any public record" and a determination
that "certain public records are being improperly withheld from a member of the public...." (Id.)
Fourth, to the extent the petition or motion seeks attorney's fees, it is deficient because Plaintiff is not an
attorney and has not offered evidence of having incurred "attorney's fees" to an attorney in any specified
amount. (See, e.g., Trope v. Katz (1995) 11 Cal.4th 274, 292 [self-represented litigant is not entitled to
recover for the value of his or her own time].) Further, fees are authorized under section 6259(d) only
"should the plaintiff prevail in litigation filed pursuant to this section." Plaintiff did not prevail as to the
instant motion or petition.
The clerk is directed to serve copies of this order, with proof of service, to counsel and to selfrepresented parties of record by mail, which shall satisfy the purposes of notice of entry of order under
C.C.P. § 1019.5(a).
Dated: 08/17/2018
facaknfe

Judge Harry Jacobs

Order

Appendix H.
Order of the Superior Court of Alameda
County that denied my Motion for Costs
and Attorney's Fees pursuant to
Government Code, Section 6259(d),
No. RG17881790, October 04, 2018.

Tatyana E. Drevaleva
10660 Hidden Mesa Place
Monterey, CA 93940__

Superior Court of California, County of Alameda
Rene C. Davidson Alameda County Courthouse
No. RG17881790

Drevaleva
Plaintifif7Petitioner( s)

Order
VS.

Motion for Attorney Fees
Denied

Department of Industrial Relations
Defendant/Respondent(s)
(Abbreviated Title)

The Motion for Attorney's Fees Pursuant to Government Code Section 6259(d), filed by Plaintiff
Tatyana Drevaleva ("Plaintiff) on July 19, 2018, was set for hearing on October 2, 2018, at 3:00 p.m.
in Department 22 before the Honorable Robert McGuiness. A tentative ruling was published and was
contested.
The matter was argued and submitted. Good cause appearing, IT IS HEREBY ORDERED THAT the
motion is DENIED.
First, the motion is duplicative of Plaintiffs request for attorney's fees in her "Petition for Writ of
Mandate and Declaratory Relief to Compel DIR to Issue Public Records," filed on May 24, 2018. In its
order of August 17, 2018, the court denied that petition along with Plaintiffs request for attorney's fees
therein. The court determined that, among other things: (1) the petition was procedurally deficient under
Government Code Section 6259(a), part of the Public Records Act ("PRA"); (2) it was not clear that
Plaintiff properly served the "petition" on the defendant sued as Department of Industrial Relations
("DIR"); (3) DIR's opposition to that petition showed that DIR replied to Plaintiffs first PRA request on
April 18, 2018, and replied to Plaintiff's second PRA request on June 13, 2018, and Plaintiff did not
show that DIR's responses were deficient, even though she contends they were untimely; (4) relief on a
"petition" under section 6259(a) is authorized only where a petitioner attests "that certain public records
are being improperly withheld from a member of the public"; and (5) Plaintiff did not show an
entitlement to attorney's fees.
In the portion addressing attorney's fees, the court stated: "Fourth, to the extent the petition or motion
seeks attorney's fees, it is deficient because Plaintiff is not an attorney and has not offered evidence of
having incurred 'attorney's fees' to an attorney in any specified amount. (See, e.g., Trope v. Katz (1995)
11 Cal.4th 274, 292 [self-represented litigant is not entitled to recover for the value of his or her own
time].) Further, fees are authorized under section 6259(d) only 'should the plaintiff prevail in litigation
filed pursuant to this section.' Plaintiff did not prevail as to the instant motion or petition." (8/17/18
order, p. 2.)
Thus, the court has already addressed Plaintiff's request for attorney's fees under section 6259(d) and
determined that she is not entitled to them. On August 21, 2018, Plaintiff filed a Notice of Appeal from
eight orders or rulings of the court, including the above order of August 17, 2018. Thus, this court no
longer has jurisdiction to consider this request, which is embraced by the appeal. (See C.C.P. § 916;
Varian Medical Systems, Inc. v. Delfino (2005) 35 Cal. 4th 180, 189.)
Second, even if the court had jurisdiction to determine the duplicative request, it would deny it for the
same reasons it denied the first one, including those enumerated (1) through (5) above.

Order

The clerk is directed to serve copies of this order, with proof of service, to counsel and to selfrepresented parties of record by mail, which shall satisfy the purposes of notice of entry of order under

cfc.P. § 1019.5(a).

Dated: 10/04/2018
Judge Robert McGuiness

Order

Appendix I.
Order of the Superior Court of Alameda
County that denied my Motion for Costs
and Attorney's Fees pursuant to C.C.P.
§128.5, No. RG17881790, October 04, 2018.

Tatyana E. Drevaleva
10660 Hidden Mesa Place
Monterey, CA 93940__

Superior Court of California, County of Alameda
Rene C. Davidson Alameda County Courthouse
No. RG17881790

Drevaleva
Plaintiff7Petitioner( s)

Order
VS.

Motion for Attorney Fees
Denied

Department of Industrial Relations
Defendant/Respondent(s)
(Abbreviated Title)

The Motion for Mandatory Costs and Attorney's Fees to the Plaintiff Who Partially Prevailed on the
anti-SLAPP Motion, filed by Plaintiff Tatyana Drevaleva ("Plaintiff) on September 10, 2018, was set
for hearing on October 2, 2018, at 3:00 p.m. in Department 22 before the Honorable Robert
McGuiness. A tentative ruling was published and was contested.
The matter was argued and submitted. Good cause appearing, IT IS HEREBY ORDERED THAT the
motion is DENIED.
The motion seeks costs and attorney's fees because Plaintiff asserts she "partially prevailed" on the
special motion to strike Plaintiffs complaint pursuant to Code of Civil Procedure Section 425.16, filed
on March 9, 2018, by State of California, Department of Industrial Relations ("DIR"), Division of
Labor Standards Enforcement (sued as "Department of Industrial Relations"). In its order of August
17, 2018, the court granted DIR's special motion to strike in large part, ordering that the "entire First
cause of action for libel, as well as all of the preliminary factual allegations described above in section
B. 1, first paragraph, are STRICKEN from the complaint." The court further ordered "the preliminary
factual allegations described above in section B.2, first paragraph, items (2), (7), (8) and (11), and
section B.2, second paragraph, item (4)," which were portions of the second cause of action for
negligence and preliminary factual allegations supporting the requests for relief, stricken from the
complaint. (8/17/18 order, p. 9, § J.) The court also determined: "Because DIR prevailed in large part
on its anti-SLAPP motion, it is entitled to its reasonable attorney's fees and costs incurred on this
motion. (See C.C.P. § 425.16(c)(1); Ketchum v. Moses (2001) 24 Cal.4th 1122, 1131.)" (8/17/18
order, p. 9, § I.) The court ordered that "DIR is awarded fees against Plaintiff under C.C.P. section
425.16(c)(1) in the amount of $5,250.00." (Id., p. 9, § J.)
Plaintiff is correct that the court did not grant the anti-SLAPP motion in its entirety, as the court
determined DIR did not meet its burden of showing that some portions of the second cause of action for
negligence, and factual allegations supporting the requested relief, fell within any of the subdivisions of
section 425.16(e). (8/17/18 order, p. 4, § C.) (The entire remainder of the action was dismissed
pursuant to DIR's demurrer.) Nevertheless, this alone does not entitle Plaintiff to an award of fees.
Section 425.16(c)(1) states: "If the court finds that a special motion to strike is frivolous or is solely
intended to cause unnecessary delay, the court shall award costs and reasonable attorney's fees to a
plaintiff prevailing on the motion, pursuant to Section 128.5." The court determines that Plaintiff is not
entitled to costs or attorney's fees under this statute, or under C.C.P. § 128.5, for several reasons.
First, the court likely lacks jurisdiction to consider Plaintiffs request for fees and costs. As discussed
above, in its order of August 17, 2018, the court determined that "DIR prevailed in large part on its
anti-SLAPP motion" and thus was "entitled to its reasonable attorney's fees and costs incurred on this
motion" under section 425.16(c)(1). (8/17/18 order, p. 9, § J.) On August 21, 2018, Plaintiff filed a
Order

Notice of Appeal from eight orders or rulings of the court on August 17, 2018, including the above
order. Thus, the correctness of the court's determination that DIR was the prevailing party on the antiSLAPP motion, as well as the award of attorney's fees in connection therewith, are before the Court of
Appeal and this court no longer has jurisdiction to vary those determinations. (See C.C.P. § 916;
Varian Medical Systems, Inc. v. Delfino (2005) 35 Cal.4th 180, 189.) Plaintiffs request to be
determined the "prevailing" party on the motion is in conflict with the court's order and is thus a matter
embraced by the appeal. (Id.)
Second, even if the court has jurisdiction to consider Plaintiffs request, the court determines that
Plaintiff is not a "plaintiff prevailing on the motion." As discussed above, the court granted DIR's antiSLAPP motion in large part, striking the entirety of the first of Plaintiffs two causes of action and
portions of the second. "A defendant need not succeed in striking even' challenged claim to be
considered a prevailing defendant entitled to recover attorney fees and costs under the statute. Instead, a
defendant is entitled to recover fees and costs in connection with a partially successful motion, unless
the results obtained are insignificant and of no practical benefit to the defendant." (City of Industry v.
City of Fillmore (2011) 198 Cal.App.4th 191, 218, citing Mann v. Quality Old Time Service, Inc.
(2006) 139 Cal.App.4th 328, 339-340; see also Cole v. Patricia A. Meyer & Associates, APC (2012)
206 Cal.App.4th 1095, 1123.) Plaintiff has not cited authority supporting her position that she is a
"plaintiff prevailing on the motion" simply because it was not granted in foil.
Third, Plaintiff has not established that the anti-SLAPP motion was "frivolous or ... solely intended to
cause unnecessary delay." "Frivolous in this context means that any reasonable attorney would agree
the motion was totally devoid of merit." (L.A. Taxi Cooperative, Inc. v. The Independent Taxi Owners
Assn, of Los Angeles (2015) 239 Cal.App.4th 918, 932; Gerbosi v. Gaims, Weil, West & Epstein, LLP
(2011) 193 Cal.App.4th 435, 450; see also C.C.P. § 128.5(b)(2) ["'Frivolous' means totally and
completely without merit or for the sole purpose of harassing an opposing party."]) Clearly, the motion
was not "totally and completely without merit" as it was granted in large part. Nor has Plaintiff met her
burden to show that the motion - even as to the portion thereof not granted - was "solely intended to
cause unnecessary delay" or was filed in "subjective bad faith." (Bach v. McNelis (1989) 207
Cal.App.3d 852; Abbett Electric Corp. v. Sullwold (1987) 193 Cal.App.3d 708.) As discussed above,
the motion was successful as to the libel cause of action and portions of the negligence cause of action
and achieved a result that was significant and of practical benefit to DIR. Although the court did not
grant the motion in its entirety, it did sustain a demurrer as to all portions of the negligence cause of
action that were not stricken, and finds that DIR's motion to strike such portions was not frivolous,
intended to cause delay or filed in bad faith.
Fourth, Plaintiff has not demonstrated that she hired an attorney to represent her in this matter or
incurred any "attorney's fees." Instead, she seeks an award of attorney's fees in the amount of
$40,000.00 "as a means of controlling burdensome and unnecessary legal tactics." (Memo., p. 17.)
Plaintiff has not shown she paid any such expenses to anyone who assisted her, much less a licensed
California attorney. A self-represented litigant, even if a licensed California attorney, has not incurred
"attorney's fees" compensable under section 425.16(c)(1). (See Witte v. Kaufman (2006) 141
Cal.App.4th 1201, 1210-1211; Sands & Associates v. Juknavorian (2012) 209 Cal.App.4th 1269,
1278; Ellis Law Group, LLP v. Nevada City Sugar Loaf Properties, LLC (2014) 230 Cal.App.4th 244,
252-253; see also Trope v. Katz (1995) 11 Cal.4th 274, 292 [applying same principle to request for
attorney's fees under Civil Code § 1717].)
Plaintiffs cited cases do not contravene this well established principle. Instead, Plaintiff relies primarily
on Abandonato v. Coldren (1995) 41 Cal.App.4th 264, 269, in which the Court of Appeal distinguished
Trope, supra, 11 Cal.4th 274, and upheld an award of attorney fees to a self-represented attorney as a
sanction against the plaintiff for bad faith tactics under Code of Civil Procedure section 128.5. In
Musaelian v. Adams (2009) 45 Cal.4th 512, 517-520, the California Supreme Court disapproved of
Abandonato, applying the Trope v. Katz principle and holding that attorney fees could not be awarded
to an attorney representing himself as a sanction under section 128.7. In so holding, the court noted the
similarity between the language in that statute authorizing "reasonable attorney's fees" and the language
in Civil Code § 1717 authorizing such fees. (Id., p. 517; see also id., p. 519 [the statute "speaks not to
compensating a party for the party's time and effort, but only to reimbursing reasonable attorney fees or
other expenses."]) The operative language of section 128.5, authorizing "reasonable attorney's fees"
and other expenses, is not distinguishable from that of section 128.7, and the Court expressly
disapproved Abandonato "to the extent... inconsistent with our holding here." (Id., at p. 520.)

Order

Although the above principle would not necessarily preclude Plaintiffs request for reimbursement of
costs or actual expenses, including transportation costs, Plaintiff obtained a fee waiver for her filing fees
in this action and is not entitled to an award for those or other expenses given that DIR's motion was
neither frivolous nor in bad faith.
At the hearing. Plaintiff addressed the portion of the court's order of August 17, 2018, ordering "that
DIR is awarded fees against Plaintiff under C.C.P. section 425.16(c)(1) in the amount of $5,250.00."
Plaintiff stated that she has attempted to pay this amount to DIR on several occasions and that DIR
rejected her payment for various reasons. At the hearing, DIR's counsel stipulated that DIR will not
seek to enforce this aspect of the order, or to collect any payment from Plaintiff, during the pendency of
Plaintiffs appeal from the August 17, 2018 order. DIR also stated that it wall not oppose Plaintiffs
Motion for a Temporary Stay of the Court's Order Directing the Plaintiff to Pay Attorney's Fees to
DIR's Counsel, filed on September 20, 2018, and scheduled for hearing on November 13, 2018.
The clerk is directed to serve copies of this order, with proof of service, to counsel and to selfrepresented parties of record by mail, which shall satisfy the purposes of notice of entry of order under
C C.P. § 1019.5(a).
Dated: 10/04/2018
Judge Robert McGuiness

L

Order

Appendix J.
Order of the Court of Appeal for the First
District, Division Four that denied my
Petition for Rehearing in Appeal No.
A155165, A155187, A155899, January 16,
2020.

T-

Court of Appeal, First Appellate District
Charles D. Johnson. Clerk/Executive Officer
Electronically FILED on 1/16/2020 by C. Hoo. Deputy Clerk

p '^5.

y
CALIFORNIA COURT OF APPEAL
FIRST APPELLATE DISTRICT " Court of Appeal. First Appellate District
DIVISION FOUR

filed

JA;* i U im
Gti0rtc$ L>. Johnson, Clerk
TATYANA DREVALEVA,
..
........... Deputy Clerk
Plaintiff and Appellant,
v.
DEPARTMENT OF INDUSTRIAL RELATIONS OF CALIFORNIA,
Defendant and Respondent.

A155165, A155187, A155899
Alameda County
Sup. Ct. No. RG17881790

:

BY THE COURT:
On January 6,2020, appellant filed a petition for rehearing. Accompanying
the petition, appellant filed the following documents:
1) "Application for Permission to Exceed the Limit of 10(ten) Pages of
Attachments Prescribed by California Rules of Court, Rule 8.204(d),"
2) "Request to Take a Judicial Notice,"
3) "Request for Permission to File a Supplemental Brief in Support of My
Petition for Rehearing," and
4) "Motion to Supplement the Record on Appeal."
The petition for rehearing is denied. Each application, request, and motion
is denied.

JAN 1 6 2020
Date:

STREETER, ACTING R.J.
P.J.

Appendix K.
Order of the California Supreme Court that
denied my Petition for Review No. S260407,
April 15, 2020.

Court of Appeal, First Appellate District, Division Four - Nos. A155165, A155187,
A155899
S260407

IN THE SUPREME COURT OF CALIFORNIA
SUPREME COURT

FILED

En Banc

APR 1 5 2020
TATYANA E. DREVALEVA, Plaintiff and Appellant, ,

Jorge Navarrete Clerk

v.
Deputy

DEPARTMENT OF INDUSTRIAL RELATIONS, Defendant and Respondent.

AND CONSOLIDATED CASES
The petition for review is denied.

CANTIL-SAKAUYE
ChiefJustice

Appendix L.
Order of the California Supreme Court that
denied my Petition for Writ of Mandate No.
S260480, April 15, 2020.

SUPREME COURT

FILED
APR 1 5 2020
Jorge Navarrete Clerk

S260480
Deputy
;■

IN THE SUPREME COURT OF CALIFORNIA
En Banc
TATYANA E. DREVALEVA, Petitioner,
v.
COURT OF APPEAL, FIRST APPELLATE DISTRICT, DIVISION FOUR,
Respondent;
DEPARTMENT OF INDUSTRIAL RELATIONS, Real Party in Interest.
The petition for writ of mandate is denied.

CMTILSAK4UYE
ChiefJustice

Appendix M.
Order of the California Supreme Court that
denied my Petition for Writ of Mandate No.
S262066, July 08, 2020.

SUPREME COURT

FILED
JUL

8 2020

Jorge Navarrete Clerk

S262066
Deputy

IN THE SUPREME COURT OF CALIFORNIA
En Banc
TATYANA E. DREVALEVA, Petitioner,
v.

COURT OF APPEAL, FIRST APPELLATE DISTRICT, DIVISION FOUR,
Respondent;
ALAMEDA HEALTH SYSTEM et al., Real Parties in Interest.
The petition for writ of mandate is denied. Petitioner’s Motion to Reinstate/Cite
the Record and Emergency Motion and Request to Contact the Ninth Circuit are denied.

CANTIL-SAKAUYE
ChiefJustice

Appendix N.
Order of the Court of Appeal for the First
District, Division four that declared me a
vexatious litigant, August 31, 2020.

Court of Appeal, First Appellate District
Charles D. Johnson, Clerk/Executive Officer
Electronically FILED on 8/31/2020 by C. Hoo, Deputy Clerk

Filed 8/31/20

NOT TO BE PUBLISHED IN OFFICIAL REPORTS
California Rules of Court rule 8.1115(a), prohibits courts and parties from citing or relying on opinions not certified for
publication or ordered published, except as specified by rule 8.1115(b). This opinion has not been certified for publication or
ordered published for purposes of rule 8.1115.______________________________________________________________________

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION FOUR

TATYANA DREVALEVA,
Plaintiff and Appellant,

A158862

v.
ALAMEDA HEALTH SYSTEM
et al.,

(Alameda County
Super. Ct. No. RG19010635)

Defendants and
Respondents.
BY THE COURT1:
On July 21, 2020, we ordered appellant Tatyana Drevaleva to show
cause why she should not be declared a vexatious litigant pursuant to Code of
Civil Procedure2 section 391 et seq. based on her conduct and motion practice
in six appeals. Having considered her response, we now declare her a
vexatious litigant pursuant to section 391, subdivisions (b)(l)-(3) and impose
prefiling orders pursuant to section 391.7.

i

Streeter, Acting P. J., Tucher, J., and Brown, J.

2 Undesignated statutory references are to the Code of Civil Procedure.
2

I.

BACKGROUND AND PROCEDURAL HISTORY3

Alameda Health System (AHS) hired Drevaleva as a cardiac monitor
technician in 2013. In an August 2013 conversation with her supervisor,
Drevaleva challenged her part-time employee status, lack of paid breaks
during her work shifts, unpaid shift differentials, and unpaid overtime
compensation. After nothing in her wages or employee status changed, on
September 5, 2013, Drevaleva sent her supervisor a letter reiterating her
questions. On September 7, 2013, AHS terminated Drevaleva for her failure
to comply with AHS employment standards. She then filed a retaliation
claim with the Department of Industrial Relations, Division of Labor
Standards Enforcement (DIR), seeking a variety of remedies including
overtime wages and differential pay.
In December 2016, after a thorough investigation, DIR determined
Drevaleva was terminated for a legitimate, non-retaliatory reason—her
negligence had seriously harmed a patient—and denied Drevaleva’s claim.
An AHS email dated September 4, 2013 documented its decision to terminate
Drevaleva before she authored her September 5 letter.
Drevaleva filed several state and federal lawsuits against AHS and
DIR related to her termination, alleging discrimination, retaliation, libel,
negligence, fraud, and violations of the Labor Code.
A. Appeals
In the seven-year period immediately preceding our July 2020 Order to
• Show Cause, Drevaleva has maintained the following six appeals in propria
persona (pro per) arising from these lawsuits, and each appeal has been
finally determined adversely to her.
3 We take these facts largely from the unpublished opinions in Drevaleva v.
Department of Industrial Relations (Dec. 20, 2019, A155165, A155187, A155899)
and Drevaleva v. Alameda Health System (May 29, 2020, A158282).
2

(1) Drevaleva v. Department of Industrial Relations (Dec. 20, 2019,
A155165, A155187, A155899) (nonpub. opn.) (Drevaleva I-III) are three pro
per appeals by Drevaleva. In Drevaleva I (A155165), filed on August 21,
2018, she challenged an August 17, 2018 trial court order partially granting
DIR’s anti-SLAPP motion to strike under Code of Civil Procedure section
425.16 and sustaining DIR’s demurrer without leave to amend. (See § 425.16
[describing procedural remedy to dismiss nonmeritorious actions that chill
the valid exercise of constitutional right of free speech].) She filed an
additional notice of appeal on August 29, 2018 (Drevaleva II, supra,
A155187), challenging trial court rulings on a motion to take discovery. On
November 21, 2018, Drevaleva filed a third notice of appeal (Drevaleva III,
supra, A155899) from an order denying her request for prevailing party
attorneys’ fees under Code of Civil Procedure section 425.16. We
subsequently consolidated the appeals for the purposes of record preparation,
briefing, oral argument, and decision. We affirmed all orders in favor of DIR.
(Drevaleva I-III, supra, A155165, A155187, A155899.)
(2) Drevaleva v. Department of Industrial Relations (Dec. 19, 2019,
A156248) (nonpub. opn.) (Drevaleva IV)—a pro per appeal by Drevaleva filed
January 16, 2019. In that appeal, Drevaleva challenged 1) the denial of her
motion to stay the trial court proceedings pending a determination of a
similar lawsuit filed in federal court; and 2) the trial court’s refusal to issue a
writ of mandate requiring DIR to transfer her case to the Department of
Industrial Relations, Department of General Services. (Ibid) We
determined Drevaleva forfeited these claims by failing to raise them in
Drevaleva I-III, which she conceded was an appeal of a final judgment.
Drevaleva TV, supra, A156248.) Although we noted that Drevaleva “should
not get a chance to resurrect issues that she forfeited in her earlier appeal by
2

filing a new notice of appeal from the same final judgment,” we nonetheless
assessed the merits of her appeal. (Ibid.) After engaging in that review, we
concluded the trial court did not abuse its discretion by denying Drevaleva’s
requests and affirmed the orders in favor of DIR. (Ibid)
(3) Drevaleva v. Alameda Health System (March 20, 2020, A157851)
(nonpub. opn.) (Drevaleva V)—a pro per appeal by Drevaleva from a
judgment. After DIR determined that AHS terminated Drevaleva for
legitimate, non-discriminatory reasons, she presented AHS with a
government claim in August 2018. (Ibid.; see Gov. Code, § 945 [allowing
lawsuits against public entities].) Drevaleva alleged she suffered over
$500,000 in losses, including lost health and dental insurance, loss of the
ability to purchase a home or car, and loss of the ability to become a
physician assistant as a result of DIR’s investigation and findings that she
was terminated from AHS due to medical negligence. (Drevaleva V, supra,
A157851.)
AHS rejected this claim as untimely and directed Drevaleva to petition
the court for relief from Government Code section 945.4, regarding
government claim presentation requirements. (Drevaleva V, supra, A157851;
see Gov. Code, § 945.6, subd. (a) [identifying timelines for providing written
or other notice to public entity of claim].) Drevaleva filed a verified petition
requesting this relief, which the trial court rejected. (Drevaleva V, supra,
A157851.) The trial court entered a judgment of dismissal with prejudice in
May 2019. (Ibid.) The trial court also denied her additional request for
sanctions against AHS and her motion under section 663 to vacate the court’s
judgment. (Ibid.)
Drevaleva filed a notice of appeal of all three orders on July 16, 2019.
Our decision on this appeal acknowledged that litigants are required to fulfill
2

government claim presentation requirements for all monetary demands,
regardless of the theory of an action. (Drevaleva V, supra, A157851.)
Drevaleva, however, conceded both in the trial court and on appeal that she
did not seek money or damages. (Ibid.) We thus deemed her verified petition
frivolous and unnecessary and affirmed the court’s rulings in favor of AHS.
(Ibid.)
(4) Drevaleva v. Alameda Health System (May 29, 2020, A158282)
(nonpub. opn.) (Drevaleva VI)—an appeal by Drevaleva in pro per filed on
September 9, 2019 challenging the trial court’s denial of her request for
attorneys’ fees because she was self-represented. As relevant here, Drevaleva
filed a petition pursuant to the California Public Records Act (CPRA)
(Gov. Code, § 6250 et seq.), seeking documents relating to her termination
from AHS and the DIR investigation of her wage and unlawful termination
claims. (Drevaleva VI, supra, A158282.) AHS produced three documents in
its possession responsive to the CPRA request and declared it did not have
any additional responsive documents. (Ibid.) The trial court thus denied
Drevaleva’s petition as moot because AHS produced the documents, declared
Drevaleva the prevailing party because her petition compelled AHS to
produce the requested documents, and entered a judgment of dismissal.
(Ibid.)
Drevaleva sought attorneys’ fees and costs under section 128.5,
governing sanctions, and Government Code section 6259, governing CPRA
attorney fees—both of which requests the trial court rejected as unsupported
by evidence that Drevaleva actually incurred attorneys’ fees, or that there
were any actions justifying sanctions. (Drevaleva VI, supra, A158282.) We
affirmed the trial court’s rulings in favor of AHS. (Ibid.)

2

In November 2019, Drevaleva filed a Notice of Appeal in this case,
Drevaleva v. Alameda Health System (A158862), challenging the trial court’s
order granting AHS’s motion to strike her complaint against AHS—which
alleged libel, abuse of process, and intentional infliction of emotional distress
based on a statement in a federal court brief that she was terminated for poor
performance—pursuant to section 425.16 (the anti-SLAPP statute).4
B. Order to Show Cause, Vexatious Litigant
Based on this extensive history of filing unsuccessful appeals, we
issued an order to Drevaleva to show cause why she should not be declared a
vexatious litigant as a result of, among other things, her adverse
determinations in Drevaleva I-III, supra, A155165, A155187, A155899;
Drevaleva TV, supra, A156248; Drevaleva V, supra, A157851; and Drevaleva
VI, supra, A158282. Drevaleva was authorized to submit an opposition, and
the matter was set for a hearing. After full briefing and extensions of
deadlines, the matter was argued and submitted.
II.

DISCUSSION

The “ ‘vexatious litigant’ ” statutes under section 391 et seq. “ ‘are
designed to curb misuse of the court system by those persistent and obsessive
litigants who, repeatedly litigating the same issues through groundless
actions, waste the time and resources of the court system and other
litigants.’ ” {In re Marriage ofRifkin & Carty (2015) 234 Cal.App.4th 1339,
1345.) In order to deem a party a vexatious litigant, a court must find the
party falls under at least one of the four separate definitions for a vexatious
litigant. (§391, subd. (b).)

4 We address the merits of the appeal in a separate unpublished opinion
affirming the trial court’s order. {Drevaleva v. Alameda Health System (August 31,
2020, A158862.)
2

Courts have the authority to enter a prefiling order prohibiting
individuals deemed vexatious litigants from filing new in pro per litigation
without first obtaining leave of the presiding judge where the litigation is to
be filed. (§ 391.7, subd, (a); Bravo v. Ismaj (2002) 99 Cal.App.4th 211, 221
(Bravo).) Permission to file may be granted “only if it appears that the
litigation has merit and has not been filed for the purposes of harassment or
delay.” (§ 391.7, subd. (b).) The prefiling requirement “does not deny the
vexatious litigant access to the courts but operates solely to preclude the
initiation of meritless lawsuits and their attendant expenditures of time and
costs.” (Bravo, at pp. 221-222.)
Drevaleva, acting in pro per, has filed many appeals adversely
determined against her; has repeatedly attempted to relitigate claims against
the same defendants that have been finally determined; and has repeatedly
filed unmeritorious motions, pleadings and other papers, all of which support
a finding that she is a vexatious litigant. (§ 391 et seq.) We address each of
these bases in turn.
A. Section 391, Subdivision (b)(1)—Appeals
As relevant here, a “vexatious litigant” is a person who “[i] n the
immediately preceding seven-year period has commenced, prosecuted, or
maintained in propria persona at least five litigations other than in a small
claims court that have been . . . finally determined adversely to the person.”
(§ 391, subd. (b)(1).) “ ‘Litigation’ means any civil action or proceeding,
commenced, maintained or pending in any state or federal court,” which also
includes any appeal. (§ 391, subd. (a); McColm v. Westwood Park Assn.
(1998) 62 Cal.App.4th 1211, 1216 (McColm)) An adverse determination
means the litigant does not win the proceeding that she began, and a
determination is final when all avenues for direct review have been
2

exhausted. (Garcia v. Lacey (2014) 231 Cal.App.4th 402, 406; Childs v.
PaineWebber Incorporated (1994) 29 Cal.App.4th 982, 993.)
As described above, Drevaleva has filed six appeals, A155165, A155187,
A155899, A156248, A158282, and A157851, five of which have been “finally
determined adversely” to her because they affirmed the trial court’s orders.5
These appeals alone establish her status as a vexatious litigant. (See § 391,
subd. (b)(1).)6
Drevaleva nonetheless challenges this conclusion for several reasons,
none of which is persuasive. First, citing section 391.1, she claims that only a
defendant, not an appellate court, can move to designate a plaintiff a
vexatious litigant upon notice and a hearing. Drevaleva’s reading of section
391.1 is accurate, but that provision is not applicable here. (§ 391.1 [“a
defendant may move the court, upon notice and hearing, for an order
requiring the plaintiff to furnish security” upon a showing “that the plaintiff
is a vexatious litigant and that there is not a reasonable probability that he
or she will prevail in the litigation against the moving defendant”].) As noted
above, section 391.7 expressly states that “the court may, on its own motion”
enter a prefiling order against a vexatious litigant. (§ 391.7, subd. (a), italics
5 Drevaleva has exhausted her avenues for review in Drevaleva 7-177, supra,
A155165, A155187, A155899; Drevaleva TV, supra, A156248; and Drevaleva V,
supra, A157851. Her petition for review of our decision in Drevaleva VI, supra,
Al58282 is currently pending in the California Supreme Court.
6 Although we do not rely on any of Drevaleva’s federal litigation in assessing
whether she meets the criteria for a vexatious litigant, we note that she has filed
several federal cases that have been determined adversely to her. (Drevaleva v.
Alameda Health Sys. (9th Cir. Dec. 24, 2019) 789 Fed. Appx. 51, 52 [affirming
district court’s dismissal of discrimination complaint]; Drevaleva v. Wilkie (N.D.
Cal., Nov. 7, 2019) 2019 U.S. Dist. LEXIS 194053 [dismissing with prejudice
Drevaleva’s complaint against West Los Angeles Veterans Affairs Medical Center
alleging discrimination]; Drevaleva v. United States (N.D. Cal., Sept. 20, 2019) 2019
U.S. Dist. LEXIS 161366 [dismissing Drevaleva’s complaint against Minneapolis
Veterans Affairs Medical Center and entering final judgment against her].)
2

added.) Our Supreme Court has confirmed that a Court of Appeal may, on its
own motion, declare a party a vexatious litigant in the first instance on
appeal. {John v. Superior Court (2016) 63 Cal.4th 91, 99-100.)
Second, Drevaleva argues that “litigation” under section 391 does not
encompass an “appeal.” (See § 391, subd. (b)(1).) This is incorrect.
a i

Litigation’ for purposes of vexatious litigant requirements encompasses

civil trials and special proceedings, but it is broader than that. It includes
proceedings initiated in the Courts of Appeal by notice of appeal or by writ
petitions other than habeas corpus or other criminal matters.” {McColm,
supra, 62 Cal.App.4th at p. 1219.) Drevaleva’s six appeals identified above
thus constitute “litigations” within the purview of the vexatious litigant
statute. (See, e.g., In re Whitaker (1992) 6 Cal.App.4th 54, 56 [identifying
party as a vexatious litigant under § 391, subd. (b)(1) due to sixteen appeals,
where eight were affirmed, seven dismissed, and one reversed].)
Finally, Drevaleva claims that Drevaleva I-III, supra, A155165,
A155187, A155899 only count as one appeal rather than three because they
were consolidated for the purposes of record preparation, briefing, oral
argument, and decision. Not so. “Litigation” includes proceedings initiated
in the Courts of Appeal “by notice of appeal.” {McColm, supra,
62 Cal.App.4th at p. 1219.) As Drevaleva filed six notices of appeal, there
were six prior appeals, five of which have been determined adversely to her.
(Cf. In re R.H. (2009) 170 Cal.App.4th 678, 684-686, 693 [where a pro per
litigant initiated multiple appeals from a single action in the trial court, each
appeal considered a separate litigation even when some were consolidated for
decision].)

2

B. Section 391, Subdivision (b)(2)—Attempts to Relitigate Claims or
Issues
Section 391, subdivision (b)(2) further defines a vexatious litigant as a
person who “repeatedly relitigates or attempts to relitigate, in propria
persona, either (i) the validity of the [final] determination ... or (ii) the
cause of action, claim, controversy, or any of the issues of fact or law” against
the same defendant or defendants. (§ 391, subd. (b)(2); see also Holcomb v.
U.S. Bank Nat. Assn. (2005) 129 Cal.App.4th 1494, 1505 [“ ‘repeatedly

5 ??

refers to “a past pattern or practice on the part of the litigant that carries the
risk of repetition in the case at hand”].) As demonstrated below, Drevaleva’s
practice of repeatedly filing requests based on the same facts and issues that
we have already decided in an attempt to relitigate or challenge the validity
of those decisions warrants a finding that Drevaleva is a vexatious litigant
under section 391, subdivision (b)(2).7
For example, in Drevaleva VI, supra, A158282, we affirmed the denial
of her request for attorneys’ fees or sanctions in a May 29, 2020 opinion. In
addition to filing a petition for rehearing, Drevaleva immediately filed
various documents and requests after issuance of the opinion, including the
following attempts to relitigate that decision: (1) a notice filed in June 2020
that she had found the physical records on appeal for Drevaleva V and a
previously-dismissed appeal (A157784), and a request that she be permitted
to use those records rather than the formal record on appeal to identify AHS’s
counsel’s bad faith tactics in support of her request for sanctions; (2) another

7 Indeed, rather than responding to this court’s Order to Show Cause, which
requested an explanation of her actions in Drevaleva VI, supra, A158282 and
Drevaleva V, supra, A157851, Drevaleva used it as an opportunity to relitigate
Drevaleva I, supra, A155165, claiming that “DIR failed to obtain the explanations
and evidence regarding this allegation” of negligence.
2

request filed in June 2020 to allow her to use her own copies of the record on
appeal in Drevaleva VI to provide support for her request for sanctions
against AHS, and to demonstrate the trial court acted fraudulently by
denying her request for sanctions ; and (3) a request filed in July 2020 to
consider various legal articles about awarding pro se litigants fees under the
Federal Rules of Civil Procedure (28 U.S.C.), rule 11.
Drevaleva displayed the same pattern after we issued our decision in
Drevaleva V, supra, A157851. Nearly two months after we affirmed the trial
court orders and rejected her petition for a rehearing, Drevaleva filed a
motion to reinstate her appeal. She claimed she found her physical copy of
the record on appeal, which would allow her to provide this Court with
necessary citations to support her claims and decide her case “anew.”
In her current appeal Drevaleva v. Alameda Health System, A158862,
Drevaleva has similarly requested we reinstate all her previously, finally
determined appeals for further proceedings in this Court. She further filed a
separate motion on June 3, 2020, asking us to take judicial notice of
significant portions of discovery for the purpose of demonstrating that AHS’s
counsel, rather than AHS, responded to discovery requests. To Drevaleva,
this demonstrates that AHS never participated in any of her previous
lawsuits and supports her assertion that the judgments underlying two of her
dismissed appeals must be reversed because they were unlawful due to AHS’s
alleged lack of participation.
These requests and responses sufficiently demonstrate Drevaleva
fulfills the vexatious litigant criteria under section 391, subdivision (b)(2).

2

C. Section 391, Subdivision (b)(3)—Frivolous Motions, Unnecessary
Burdens
Finally, Drevaleva is a vexatious litigant under section 391, subdivision
(b)(3) because “[i]n any litigation while acting in propria persona, [she]
repeatedly files unmeritorious motions, pleadings, or other papers, conducts
unnecessary discovery, or engages in other tactics that are frivolous or solely
intended to cause unnecessary delay.” (§ 391, subd. (b)(3.) To qualify under
subdivision (b(3), the motions must be “so devoid of merit and be so frivolous
that they can be described as a ‘ “flagrant abuse of the system,” ’ have ‘no
reasonable probability of success,’ lack ‘reasonable or probable cause or
excuse’ and are clearly meant to ‘ “abuse the processes of the courts and to
harass the adverse party.

yy y yy

(Morton v. Wagner (2007) 156 Cal.App.4th 963,

972.) A review of even a few of Drevaleva’s recent motions and requests
demonstrates that she adequately fulfills these criteria.
In Drevaleva VI, supra, A158282, she moved for all of the Justices in
this Division to recuse themselves from adjudicating her appeal. Rather than
citing any authority or evidence warranting recusal, she asserted in a
conclusory manner that the Justices were biased, prejudiced, and would rule
in favor of AHS and DIR because those agencies’ employees and the Justices
all worked in the same building with each other. (Ibid.) Requests to recuse
justices in the absence of any evidence supporting the existence of any
relationship, personal or otherwise, between the justices and other litigants
are frivolous, and Drevaleva’s request is no different. (See In re Koven (2005)
134 Cal.App.4th 262, 273.)
In that same appeal, Drevaleva moved to disqualify counsel
representing AHS because she alleged it had a conflict of interest under the

2

American Bar Association Model Rules of Professional Conduct8, rule 1.7.
(Drevaleva VI, supra, A158282.) But there was no basis for a disqualification
motion grounded on conflict of interest because Drevaleva did not have an
attorney-client relationship with AHS’s counsel. (Great Lakes Construction,
Inc. v. Burman (2010) 186 Cal.App.4th 1347, 1356 [requiring an attorneyclient relationship or other confidential relationship with counsel to
disqualify an attorney from representation].) She fails to cite any authority
for her request, and there is nothing in Drevaleva’s additional documents,
including her “Objections to Defendants’ Filing Named ‘Opposition to
Appellant’s Motion to Disqualify Opposing Counsel,’ addressing AHS’s
arguments regarding her motion to disqualify counsel.9 (.Drevaleva VI, supra,
A158282.)
In another request, Drevaleva attempted to conduct unnecessary
discovery, imploring this court to “schedule a hearing and to order an Officer
of [AHS] itself to personally come to the hearing and to declare under the
penalty of perjury and under the laws of the State of California that this
Officer was responsible for every statement that was presented to the
Superior Court and the Court of Appeal for the First District, Division Four”
during her trial court proceedings and appeals so that she could identify the
person who owes her attorney fees. (Drevaleva VI, supra, A158282.) She
cites nothing to support this court’s alleged authority to issue a subpoena
against an unknown employee at AHS to determine who must pay attorney
fees to which Drevaleva, as a pro se litigant, is not in any event entitled.

8 All references to the Rules of Professional Conduct are to the American Bar
Association Model Rules of Professional Conduct
9 We denied these motions and additional requests.
2

In her pending appeal, Drevaleva v. Alameda Health System (A158862),
Drevaleva filed more than five different motions and requests on May 4, 2020
alone. One was a “Motion to Deny the Narayan Travelstead Professional
Law Corporation's Right for Self-Representation” based on AHS’s counsel’s
failure to submit a declaration under penalty of perjury that it had personal
knowledge of the factual assertions presented in AHS’s brief. She also filed
another frivolous “Motion to Disqualify the Opposing Counsel the Narayan
Travelstead Professional Law Corporation from Representing Defendant
Alameda Health System” because of an alleged conflict of interest under
Rules of Professional Conduct, rule 1.7—largely repeating the arguments
that were made and rejected in her motion to disqualify counsel in Drevaleva
IV. (See In re Whitaker, supra, 6 Cal.App.4th at p. 56 [repeating arguments
that have been made and rejected by the same court is frivolous conduct].)
On May 28, 2020, Drevaleva filed various documents, notifying us of
related case Drevaleva v. Harding, filed against her former AHS supervisor
in Alameda County Superior Court. She also requested that we, among other
things, issue an order extending the deadline for serving a trial court
summons on the respondent because she did not know his current location.
She further requested us to order Equifax-Verification Services, a third-party
without any ties to Drevaleva or respondent Harding, to disclose information
about the respondent. She did not identify any legal basis for these requests.
A few days later, on June 3, Drevaleva filed a “1) Second Additional
Information to My Notice of a Related Case [and] 2) Request for an Order.”
In this request, she admitted she was simply repeating her request filed on
May 28. But she also demanded that we listen to the oral argument
recording in an entirely different and completed appeal, Drevaleva V, to
assess the veracity of statements made by AHS’s counsel. She further
2

requested, without citing any legal authority or evidence, that we notify the
California Supreme Court and Attorney General of the State of California of
potential criminal conduct by AHS counsel for possibly falsifying and lying
about a signature by a process server. We denied these requests on June 16,
2020.
In another instance, rather than filing a focused response to our July
2020 Vexatious Litigant Order to Show Cause, Drevaleva spent her time
threatening to pursue efforts to have the Judicial Council permanently
disqualify the Justices of this Division and to “indict all of them for a civil
conspiracy” with AHS, AHS’s counsel, and DIR because our decisions
prevented her from being reinstated at AHS. Aside from parroting the
statutes for civil conspiracy, Drevaleva cites no facts supporting her
conclusory allegations. Indeed, Drevaleva admits, “I don’t have any direct
evidence of possible conspiracy between the Justices and AHS.”
Drevaleva’s further refusal to adhere to court instructions prohibiting
overly voluminous materials is apparent. She filed a request for permission
to exceed the page and word count of her opening brief on November 25,
2019. The next day, she filed a nearly identical second request for the same
relief but increased her word count request by only 30 words. On May 4,
2020, she filed the decisions in 13 cases from various Courts of Appeal
throughout California without offering any explanation of their relevance to
her appeal or pending motions.
On August 13, 2020, Drevaleva requested additional time to respond to
this Court’s Order to Show Cause why she should not be declared a vexatious
litigant. We granted her request, stating that she “shall file a single brief’ on
August 17, 2020. Instead of complying with our directive, Drevaleva filed
three briefs, totaling over 200 pages, between August 17 and 18. This
2

response was submitted in addition to her previously-filed “Initial and Partial
Response to the July 21, 2020 Order to Show Cause”—a document totaling 54
pages, including exhibits of other federal courts orders dismissing
Drevaleva’s lawsuits as frivolous.10
The sheer number and volume of irrelevant and frivolous documents
that Drevaleva has filed or submitted have resulted in unnecessary burdens
on this Court and respondents. (Cf. In re Marriage of Schnabel (1994)
30 Cal.App.4th 747, 755 [consequences of frivolous filings include that
a (

[o]ther appellate parties, many of whom wait years for a resolution of bona

fide disputes, are prejudiced by the useless diversion of this court’s
attention. . . . [T]he appellate system and the taxpayers of this state are
damaged by what amounts to a waste of this court’s time and resources’ ”].)
Drevaleva thus fulfills the vexatious litigant criteria under section 391,
subdivision (b)(3).
III.

DISPOSITION

Tatyana Drevaleva is hereby declared a vexatious litigant within the
meaning of section 391, subdivisions (b)(l)-(3). Pursuant to section 391.7,
henceforth she may not file any new litigation in the courts of the State of
California in propria persona without first obtaining leave of the presiding
judge or presiding justice of the court where the litigation is proposed to be
filed. (§ 391.7, subd. (a).) Disobedience of this order may be punished as a
contempt of court. (Ibid.) The clerk of this court is directed to provide a copy

10 Three days after the deadline for filing her reply brief (which she filed on
August 21, 2020), Drevaleva submitted a “Response to the Order to Show Cause,
Part 4,” a 122-page document in which she largely reiterated her dissatisfaction
with AHS’s and DIR’s responses to many of her discovery requests in the trial court.
We struck this filing as untimely and in violation of our August 14, 2020 order
setting deadlines and requiring her to file a “single brief’ in response to the order to
show cause.
2

of this opinion and order to the Judicial Council. (Id., subd. (f).) Copies shall
also be mailed to the presiding judge and clerk of Alameda County Superior
Court.

Dated:

2

Appendix O.
Order of the Court of Appeal for the First
District, Division Four clarified the August
31, 2020 Order that declared me a
vexatious litigant, September 04, 2020.

Court of Appeal, First Appellate District
Charles D. Johnson, Clerk/Executive Officer
Electronically FILED on 9/4/2020 by C. Hoo, Deputy Clerk

CALIFORNIA COURT OF APPEAL
FIRST APPELLATE DISTRICT
DIVISION FOUR

TATYANA E. DREVALEVA,
Plaintiff and Appellant,
v.
ALAMEDA HEALTH SYSTEM et al.,
Defendants and Respondents.
A158862
Alameda County
Sup. Ct. No. RG19010635
BY THE COURT*:
On September 3, 2020, appellant submitted a “Request to File a New
Litigation by the Vexatious Litigant” (Request to File) with an accompanying
“Request for Clarification of the August 31, 2020 Order that Declared Me a
Vexatious Litigant” (Request for Clarification). The clerk of this court is
directed to file the Request to File and the Request for Clarification as of
September 3, 2020, the date the court received the requests.
The Request to File is denied as moot, as the Request for Clarification
does not constitute “new litigation” within the meaning of Code of Civil
Procedure section 391.7 and the August 31, 2020 Order.
The court grants appellant’s Request for Clarification by clarifying that
(1) the August 31, 2020 Order applies only to California state courts, and not
to any federal courts; and (2) the August 31, 2020 order does not apply to
motions or other filings in any cases that were pending in California state
courts on or before August 31, 2020.

Date:

P.J.

*Streeter, Acting P.J., Tucher, J. and Brown, J. participated in the
decision.

Appendix P.
A former version of the California Labor Code
Section 98.7.

Section 98.7. :: 2016 California Code :: US Codes and Statutes :: US Law ... https://law.justia.com/codes/california/2016/code-lab/division-l/chapter-...

JUSTIA
View the 2018 California Code | View Previous Versions of the California Code

2016 California Code
Labor Code - LAB
DIVISION 1 - DEPARTMENT OF
INDUSTRIAL RELATIONS
CHAPTER 4 - Division of Labor
Standards Enforcement
Section 98.7.
Universal Citation: CA Labor Code § 98.7 (2016)
98.7. (a) Any person who believes that he or she has been discharged or otherwise
discriminated against in violation of any law under the jurisdiction of the Labor
Commissioner may file a complaint with the division within six months after the
occurrence of the violation. The six-month period may be extended for good cause. The
complaint shall be investigated by a discrimination complaint investigator in accordance
with this section. The Labor Commissioner shall establish procedures for the investigation
of discrimination complaints. A summary of the procedures shall be provided to each
complainant and respondent at the time of initial contact. The Labor Commissioner shall
inform complainants charging a violation of Section 6310 or 6311, at the time of initial
contact, of his or her right to file a separate, concurrent complaint with the United States
Department of Labor within 30 days after the occurrence of the violation.
(b) Each complaint of unlawful discharge or discrimination shall be assigned to a
discrimination complaint investigator who shall prepare and submit a report to the Labor
Commissioner based on an investigation of the complaint. The Labor Commissioner may
designate the chief deputy or assistant Labor Commissioner or the chief counsel to receive
and review the reports. The investigation shall include, where appropriate, interviews with
the complainant, respondent, and any witnesses who may have information concerning the
alleged violation, and a review of any documents that may be relevant to the disposition of

1 of 4

12/24/2019, 4:56 PM

Section 98.7.:: 2016 California Code :: US Codes and Statutes :: US Law ... https://law.justia.com/codes/california/2016/code-lab/division-l/chapter-...

the complaint. The identity of a witness shall remain confidential unless the identification
of the witness becomes necessary to proceed with the investigation or to prosecute an
action to enforce a determination. The investigation report submitted to the Labor
Commissioner or designee shall include the statements and documents obtained in the
investigation, and the findings of the investigator concerning whether a violation occurred.
The Labor Commissioner may hold an investigative hearing whenever the Labor
Commissioner determines, after review of the investigation report, that a hearing is
necessary to fully establish the facts. In the hearing the investigation report shall be made a
part of the record and the complainant and respondent shall have the opportunity to
present further evidence. The Labor Commissioner shall issue, serve, and enforce any
necessary subpoenas.
(c) If the Labor Commissioner determines a violation has occurred, he or she shall notify
the complainant and respondent and direct the respondent to cease and desist from the
violation and take any action deemed necessary to remedy the violation, including, where
appropriate, rehiring or reinstatement, reimbursement of lost wages and interest thereon,
payment of reasonable attorney s fees associated with any hearing held by the Labor
Commissioner in investigating the complaint, and the posting of notices to employees. If
the respondent does not comply with the order within 10 working days following
notification of the Labor Commissioner s determination, the Labor Commissioner shall
bring an action promptly in an appropriate court against the respondent. If the Labor
Commissioner fails to bring an action in court promptly, the complainant may bring an
action against the Labor Commissioner in any appropriate court for a writ of mandate to
compel the Labor Commissioner to bring an action in court against the respondent. If the
complainant prevails in his or her action for a writ, the court shall award the complainant
court costs and reasonable attorney s fees, notwithstanding any other law. Regardless of
any delay in bringing an action in court, the Labor Commissioner shall not be divested of
jurisdiction. In any action, the court may permit the claimant to intervene as a party
plaintiff to the action and shall have jurisdiction, for cause shown, to restrain the violation
and to order all appropriate relief. Appropriate relief includes, but is not limited to,
rehiring or reinstatement of the complainant, reimbursement of lost wages and interest
thereon, and any other compensation or equitable relief as is appropriate under the
circumstances of the case. The Labor Commissioner shall petition the court for appropriate
temporary relief or restraining order unless he or she determines good cause exists for not
doing so.
(d) (l) If the Labor Commissioner determines no violation has occurred, he or she shall
notify the complainant and respondent and shall dismiss the complaint. The Labor

2 of 4

12/24/2019, 4:56 PM

Section 98.7.:: 2016 California Code :: US Codes and Statutes :: US Law ... https://law.justia.com/codes/california/2016/code-lab/division-l/chapter-...

Commissioner may direct the complainant to pay reasonable attorney s fees associated with
any hearing held by the Labor Commissioner if the Labor Commissioner finds the
complaint was frivolous, unreasonable, groundless, and was brought in bad faith. The
complainant may, after notification of the Labor Commissioner s determination to dismiss a
complaint, bring an action in an appropriate court, which shall have jurisdiction to
determine whether a violation occurred, and if so, to restrain the violation and order all
appropriate relief to remedy the violation. Appropriate relief includes, but is not limited to,
rehiring or reinstatement of the complainant, reimbursement of lost wages and interest
thereon, and other compensation or equitable relief as is appropriate under the
circumstances of the case. When dismissing a complaint, the Labor Commissioner shall
advise the complainant of his or her right to bring an action in an appropriate court if he or
she disagrees with the determination of the Labor Commissioner, and in the case of an
alleged violation of Section 6310 or 6311, to file a complaint against the state program with
the United States Department of Labor.
(2) The filing of a timely complaint against the state program with the United States
Department of Labor shall stay the Labor Commissioner s dismissal of the division
complaint until the United States Secretary of Labor makes a determination regarding the
alleged violation. Within 15 days of receipt of that determination, the Labor Commissioner
shall notify the parties whether he or she will reopen the complaint filed with the division
or whether he or she will reaffirm the dismissal.
(e) The Labor Commissioner shall notify the complainant and respondent of his or her
determination under subdivision (c) or paragraph (1) of subdivision (d), not later than 60
days after the filing of the complaint. Determinations by the Labor Commissioner under
subdivision (c) or (d) may be appealed by the complainant or respondent to the Director of
Industrial Relations within 10 days following notification of the Labor Commissioner s
determination. The appeal shall set forth specifically and in full detail the grounds upon
which the appealing party considers the Labor Commissioner s determination to be unjust
or unlawful, and every issue to be considered by the director. The director may consider
any issue relating to the initial determination and may modify, affirm, or reverse the Labor
Commissioner s determination. The director s determination shall be the determination of
the Labor Commissioner. The director shall notify the complainant and respondent of his
or her determination within 10 days of receipt of the appeal.
(f) The rights and remedies provided by this section do not preclude an employee from
pursuing any other rights and remedies under any other law.
(g) In the enforcement of this section, there is no requirement that an individual exhaust

3 of 4

12/24/2019, 4:56 PM

Section 98.7. :: 2016 California Code :: US Codes and Statutes :: US Law ... https://law.justia.com/codes/california/2016/code-lab/division-l/chapter-...

administrative remedies or procedures.
(Amended by Stats. 2013, Ch. 732, Sec. 3. Effective January 1,2014.)

Disclaimer: These codes may not be the most recent version. California may have more current or
accurate information. We make no warranties or guarantees about the accuracy, completeness, or
adequacy of the information contained on this site or the information linked to on the state site. Please
check official sources.

4 of 4

12/24/2019, 4:56 PM

Appendix R.
The California anti-SLAPP statute of the
California Code of Civil Procedure, Section
425.16.

https://leginfo.legislature.ca.gov/faces/codes_displaySection.xhtml71awC...

Law section

LEGISLATIVE INFORMATION
Home

Bill Information

California Law

Publications

Other Resources

My Subscriptions

My Favorites

Code: Select Code | Section: 1 or 2 or 1001 | | Search

Up_n

<< Previous

Next >>

cross-reference chaptered bills

PDF | Add To Mv Favorites

©

0

Highlight
Search Phrase:
CODE OF CIVIL PROCEDURE - CCP
PART 2. OF CIVIL ACTIONS [307 -1062.20] (Part 2 enacted 1872.)
TITLE 6. OF THE PLEADINGS IN CIVIL ACTIONS [420 - 475] (Title 6 enacted 1872.)
CHAPTER 2. Pleadings Demanding Relief [425.10 -429.30] < Chapter 2 repealed and added by Stats. 1971, Ch. 244.)
ARTICLE 1. General Provisions [425.10-425.55] (Article 1 added by Stats. 1971, Ch. 244.)
425.16. (a) The Legislature finds and declares that there has been a disturbing increase in lawsuits brought primarily
to chill the valid exercise of the constitutional rights of freedom of speech and petition for the redress of grievances.
The Legislature finds and declares that it is in the public interest to encourage continued participation in matters of
public significance, and that this participation should not be chilled through abuse of the judicial process. To this
end, this section shall be construed broadly.
(b) (1) A cause of action against a person arising from any act of that person in furtherance of the person's right of
petition or free speech under the United States Constitution or the California Constitution in connection with a public
issue shall be subject to a special motion to strike, unless the court determines that the plaintiff has established that
there is a probability that the plaintiff will prevail on the claim.
(2) In making its determination, the court shall consider the pleadings, and supporting and opposing affidavits
stating the facts upon which the liability or defense is based.
(3) If the court determines that the plaintiff has established a probability that he or she will prevail on the claim,
neither that determination nor the fact of that determination shall be admissible in evidence at any later stage of the
case, or in any subsequent action, and no burden of proof or degree of proof otherwise applicable shall be affected
by that determination in any later stage of the case or in any subsequent proceeding.
(c) (1) Except as provided in paragraph (2), in any action subject to subdivision (b), a prevailing defendant on a
special motion to strike shall be entitled to recover his or her attorney's fees and costs. If the court finds that a
special motion to strike is frivolous or is solely intended to cause unnecessary delay, the court shall award costs and
reasonable attorney's fees to a plaintiff prevailing on the motion, pursuant to Section 128.5.
(2) A defendant who prevails on a special motion to strike in an action subject to paragraph (1) shall not be entitled
to attorney's fees and costs if that cause of action is brought pursuant to Section 6259, 11130, 11130.3, 54960, or
54960.1 of the Government Code. Nothing in this paragraph shall be construed to prevent a prevailing defendant
from recovering attorney's fees and costs pursuant to subdivision (d) of Section 6259, or Section 11130.5 or
54960.5, of the Government Code.
(d) This section shall not apply to any enforcement action brought in the name of the people of the State of
California by the Attorney General, district attorney, or city attorney, acting as a public prosecutor.
(e) As used in this section, "act in furtherance of a person's right of petition or free speech under the United States
or California Constitution in connection with a public issue" includes: (1) any written or oral statement or writing
made before a legislative, executive, or judicial proceeding, or any other official proceeding authorized by law, (2)
any written or oral statement or writing made in connection with an issue under consideration or review by a
legislative, executive, or judicial body, or any other official proceeding authorized by law, (3) any written or oral
statement or writing made in a place open to the public or a public forum in connection with an issue of public
interest, or (4) any other conduct in furtherance of the exercise of the constitutional right of petition or the
constitutional right of free speech in connection with a public issue or an issue of public interest.
(f) The special motion may be filed within 60 days of the service of the complaint or, in the court's discretion, at any
later time upon terms it deems proper. The motion shall be scheduled by the clerk of the court for a hearing not
more than 30 days after the service of the motion unless the docket conditions of the court require a later hearing.
(g) All discovery proceedings in the action shall be stayed upon the filing of a notice of motion made pursuant to this

1 of 2

7/3/2020, 6:46 PM

Law section

https://leginfo.legislature.ca.gov/faces/codes_displaySection.xhtml71awC...

section. The stay of discovery shall remain in effect until notice of entry of the order ruling on the motion. The court,
on noticed motion and for good cause shown, may order that specified discovery be conducted notwithstanding this
subdivision.
(h) For purposes of this section, "complaint" includes "cross-complaint" and "petition," "plaintiff" includes "cross­
complainant" and "petitioner," and "defendant" includes "cross-defendant" and "respondent."
(i) An order granting or denying a special motion to strike shall be appealable under Section 904.1.
(j) (1) Any party who files a special motion to strike pursuant to this section, and any party who files an opposition
to a special motion to strike, shall, promptly upon so filing, transmit to the Judicial Council, by e-mail or facsimile, a
copy of the endorsed, filed caption page of the motion or opposition, a copy of any related notice of appeal or
petition for a writ, and a conformed copy of any order issued pursuant to this section, including any order granting or
denying a special motion to strike, discovery, or fees.
(2) The Judicial Council shall maintain a public record of information transmitted pursuant to this subdivision for at
least three years, and may store the information on microfilm or other appropriate electronic media.
(Amended by Stats. 2014, Ch. 71, Sec. 17. (SB 1304) Effective January 1, 2015.)

-\

2 of 2

7/3/2020, 6:46 PM

